<html>
<title> - THE ROLES AND MISSIONS OF THE NATIONAL GUARD IN SUPPORT OF THE BUREAU OF CUSTOMS AND BORDER PROTECTION</title>
<body><pre>[Senate Hearing 109-911]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 109-911
 
 THE ROLES AND MISSIONS OF THE NATIONAL GUARD IN SUPPORT OF THE BUREAU 
                    OF CUSTOMS AND BORDER PROTECTION 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 17, 2006

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

35-878 PDF                      WASHINGTON : 2007 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  























                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
JEFF SESSIONS, Alabama               JOSEPH I. LIEBERMAN, Connecticut
SUSAN M. COLLINS, Maine              JACK REED, Rhode Island
JOHN ENSIGN, Nevada                  DANIEL K. AKAKA, Hawaii
JAMES M. TALENT, Missouri            BILL NELSON, Florida
SAXBY CHAMBLISS, Georgia             E. BENJAMIN NELSON, Nebraska
LINDSEY O. GRAHAM, South Carolina    MARK DAYTON, Minnesota
ELIZABETH DOLE, North Carolina       EVAN BAYH, Indiana
JOHN CORNYN, Texas                   HILLARY RODHAM CLINTON, New York
JOHN THUNE, South Dakota

                    Charles S. Abell, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)

  





































                           C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

 The Roles and Missions of the National Guard in Support of the Bureau 
                    of Customs and Border Protection

                              may 17, 2006

                                                                   Page

McHale, Hon. Paul, Assistant Secretary of Defense for Homeland 
  Defense........................................................     6
Conway, Lt. Gen. James T., USMC, Director of Operations, J-3, The 
  Joint Staff....................................................     7
Blum, LTG H. Steven, USA, Chief, National Guard Bureau...........     8
Aguilar, Chief David V., Office of Border Patrol, U.S. Customs 
  and Border Protection, Department of Homeland Security.........     9
Craig, Senator Larry E., U.S. Senator from the State of Idaho....    27

                                 (iii)


                     THE ROLES AND MISSIONS OF THE
                    NATIONAL GUARD IN SUPPORT OF THE
                      BUREAU OF CUSTOMS AND BORDER
                               PROTECTION

                              ----------                              


                        WEDNESDAY, MAY 17, 2006

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 4:10 p.m. in room 
SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, Collins, 
Ensign, Talent, Thune, Byrd, Reed, Akaka, E. Benjamin Nelson, 
Dayton, and Clinton.
    Committee staff members present: Charles S. Abell, staff 
director; Leah C. Brewer, nominations and hearings clerk; and 
John H. Quirk V, security clerk.
    Majority staff members present: Regina A. Dubey, 
professional staff member; Ambrose R. Hock, professional staff 
member; Gregory T. Kiley, professional staff member; Sandra E. 
Luff, professional staff member; Derek J. Maurer, professional 
staff member; Elaine A. McCusker, professional staff member; 
David M. Morriss, counsel; Lucian L. Niemeyer, professional 
staff member; Lynn F. Rusten, professional staff member; Sean 
G. Stackley, professional staff member; Scott W. Stucky, 
general counsel; and Kristine L. Svinicki, professional staff 
member.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Evelyn N. Farkas, professional staff 
member; Creighton Greene, professional staff member; Gerald J. 
Leeling, minority counsel; Peter K. Levine, minority counsel; 
and Michael J. McCord, professional staff member.
    Staff assistants present: Jessica L. Kingston, Benjamin L. 
Rubin, Jill L. Simodejka, and Pendred K. Wilson.
    Committee members' assistants present: Arch Galloway II, 
assistant to Senator Sessions; Mackenzie M. Eaglen, assistant 
to Senator Collins; D'Arcy Grisier, assistant to Senator 
Ensign; Lindsey R. Neas, assistant to Senator Talent; Clyde A. 
Taylor IV, assistant to Senator Chambliss; Greg Riels, 
assistant to Senator Dole; Russell J. Thomasson, assistant to 
Senator Cornyn; Christina Evans and Erik Raven, assistants to 
Senator Byrd; Elizabeth King and Neil D. Campbell, assistants 
to Senator Reed; Darcie Tokioka, assistant to Senator Akaka; 
William K. Sutey, assistant to Senator Bill Nelson; Eric 
Pierce, assistant to Senator Ben Nelson; Kimberly Jackson, 
assistant to Senator Dayton; and Andrew Shapiro, assistant to 
Senator Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good afternoon, everyone.
    I'll place my complete opening statement in the record, but 
I would want to first acknowledge the most important fact here, 
that today is your birthday, Senator Nelson. You may have an 
extra minute or two. [Laughter.]
    Senator Collins, I thank you for your cooperation. The 
Department of Homeland Security (DHS), over which your 
committee has jurisdiction--has provided us a witness because 
there is a joint tasking, at the present time, between the 
Department of Defense (DOD) and the DHS. Perhaps that chain of 
command and tasking can be dealt with, Mr. Secretary in your 
testimony.
    The President, I think, has made a bold and a correct 
decision--and I support the President in beginning to utilize 
one of America's most valuable assets--its National Guard--
which goes back to the very origins of this republic, to come 
to the forefront to help their fellow Americans provide a 
greater measure of security on their borders. We're anxious to 
receive such details as we can from our distinguished panel of 
witnesses.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    Good afternoon, the Senate Armed Services Committee meets today to 
receive testimony regarding the roles and missions of National Guard 
Forces in support of civil authorities.
    Specifically, we meet to discuss the recent announcement by 
President Bush that National Guard units will be deployed, on a 
temporary basis--in support of the Department of Homeland Security, 
Bureau of Customs and Border Protection.
    We welcome our distinguished witnesses:

          The Honorable Paul McHale, Assistant Secretary of Defense 
        for Homeland Defense;
          Chief David V. Aguilar, Chief of U.S. Border Patrol, U.S. 
        Customs and Border Protection;
          Lieutenant General James T. Conway, Director of Operations, 
        J-3, the Joint Staff; and,
          Lieutenant General Steven Blum, Chief, National Guard 
        Bureau.

    Over the past several weeks, there has been considerable debate 
within Congress, and throughout our Nation, regarding how best to stem 
the flow of illegal immigrants across our borders.
    On Monday, May 15, our President addressed the Nation, and proposed 
to employ the National Guard in support of the Bureau of Customs and 
Border Protection, to assist them with their border security mission.
    Based on the initial reports and meetings, I believe this proposal 
has considerable merit.
    However, many unanswered questions remain.
    Gentlemen, we seek your insight, as well as your own personal 
assessments, regarding the following:

          Under what statutory authority units and members of the 
        National Guard would be deployed?
          What is the duration of this deployment?
          When do you expect the first units will be deployed?
          How will these deployments be funded?
          How will unity of command, as well as, unity of effort be 
        accomplished? And,
          What are the rules for ``the use of force'' for these units?

    We have much ground to cover on this very important topic.
    Again, we welcome our witnesses this afternoon and look forward to 
their testimony.

    Chairman Warner. Senator Nelson, do you have an opening 
statement?
    Senator Ben Nelson. I do, Mr. Chairman.
    I have a statement that Senator Levin has asked me to 
introduce, which I will insert into the record at this time.
    [The prepared statement of Senator Levin follows:]
                Prepared Statement by Senator Carl Levin
    Let me join the Chairman in welcoming Secretary McHale, General 
Conway, General Blum, and Chief Aguilar. Let me thank the Chairman for 
holding this hearing. Given the demands being placed on the National 
Guard by operations in Iraq, Afghanistan, the global war on terrorism, 
and the need to be prepared to respond to natural disasters in the 
hurricane and fire seasons--which are upon us--it is incumbent upon 
this committee to examine the implications of the President's border 
security proposal for the U.S. military.
    On Monday night, President Bush announced a plan to address illegal 
immigration, which included using the National Guard for a transitional 
period of time to strengthen border security. He stated that, starting 
next month, and over the course of the next year, up to 6,000 National 
Guard personnel will be helping border security and law enforcement 
officials secure the border with Mexico. In a briefing yesterday, 
Secretary McHale indicated that it is also possible that some--title 
10--or Federal status--military personnel might also be assigned to 
this border security mission.
    While chapter 18 of title 10 of the U.S.C. provides authority for 
military personnel to support law enforcement agencies under certain 
circumstances, and Congress has since 1989 provided temporary authority 
for the conduct of counterdrug activities in support of law enforcement 
agencies and, most recently, for counterterrorism activities, this new 
border security role does not appear to be specifically authorized by 
U.S. law. I hope Secretary McHale can tell us about the specific legal 
authority for this mission.
    The President's plan has implications for our military, for the 
States, and for our international relations. We need to know more about 
how units and individuals will be affected. Some of the tasks that 
Secretary McHale outlined in briefings yesterday--such as engineering 
and aerial reconnaissance--involve so-called ``high demand, low 
density'' assets that are sorely needed in Iraq, Afghanistan, and for 
counterterrorist and counterdrug missions. Moreover, on reconnaissance, 
the Government Accountability Office's (GAO) report on Hurricane 
Katrina and lessons for the military that was just released on Monday, 
states that these same reconnaissance capabilities need to be better 
integrated into disaster support missions of the U.S. military. Do we 
have enough assets to meet all of the existing warfighting 
requirements, disaster relief planning and operational requirements, 
and now this new border support mission?
    Our staff was informed that National Guard personnel returning from 
Iraq and Afghanistan would not be assigned to the border support 
mission for at least 6 months. Given that, will there be sufficient 
National Guard personnel to rotate through the border patrol mission 
for the next year at the levels envisioned by the plan? Also, what will 
be the readiness impact on the National Guard units who have not 
rotated through Iraq or Afghanistan, but do participate in the border 
security mission? For some military specializations, this border 
security mission will not provide them with training to maintain their 
warfighting skills. Moreover, since our staff was advised that the 
National Guard units would be acquiring training that equates to their 
mission essential tasks, would that exclude the participation of units 
such as most infantry and artillery and the like, whose skills do not 
appear to match up with what might be helpful to the border patrol?
    I also hope to hear more about whether this plan has been 
coordinated with the governors of the southern States that would be 
receiving personnel and the States that would be supplying National 
Guard units and individuals, and how it will be executed in 
coordination with them. Given the problems experienced in coordinating 
large-scale, multi-State National Guard movements to assist the Gulf 
States after Hurricane Katrina, can we be confident that the Northern 
Command and the National Guard are now prepared to manage the 
deployments associated with responding to catastrophic natural 
disasters, and this new border security mission?
    On the international front, the Mexican government stated yesterday 
that it will file lawsuits in U.S. courts if U.S. troops directly 
engage in detaining migrants. We have been told that this plan 
specifically prohibits the National Guard from undertaking any law 
enforcement missions, but I would like to hear more about where the 
lines will be drawn. Exactly what rules will apply to the use of force? 
In addition, it appears that the Mexican government was simply informed 
of this plan, rather than consulted or coordinated with. I am 
interested in hearing about whether there will be any coordination with 
Mexican law enforcement and military officials in the execution of U.S. 
missions.
    Canadian officials have also expressed concern about the impact on 
the northern border. I would like to know whether we consulted with the 
Canadians on this initiative and what the impact will be on the 
northern border.
    Finally, of course, we need to know what this will cost for the 
Department of Defense and how it will be paid for.
    Thank you.

    Senator Ben Nelson. Let me say that the 8 years that I was 
Governor of Nebraska, with an Adjutant General of extraordinary 
capabilities, Major General Stanley M. Heng, some of the 
proudest and most important moments that I had during those 8 
years were when I had to have the support of the National 
Guard. On each and every occasion, when it was necessary, 
unfortunately, to ask for their help, they responded in a way--
and I might say that General Heng has been experiencing some 
less-than-great health lately, and I know our thoughts and our 
prayers and best wishes go to him.
    Let me join in welcoming Secretary McHale, General Conway, 
and General Blum. Thank you, Mr. Chairman, for holding this 
hearing, and in such a timely manner, given the demands placed 
on the National Guard by operations in Iraq, Afghanistan, the 
global war on terrorism, and the need to be prepared to respond 
to natural disasters in the hurricane and fire seasons, which 
are, unfortunately, upon us.
    It's incumbent upon this committee to examine the 
implications of the President's border security proposal for 
the U.S. military, even though many may be in total support of 
that effort.
    On Monday night, President Bush announced a plan to address 
illegal immigration, which included using the National Guard 
for a transitional period of time to strengthen border 
security. He stated that, starting next month and over the 
course of the next year, up to 6,000 National Guard personnel 
will be helping border security and law enforcement officials 
secure the border with Mexico. In a briefing yesterday, 
Secretary McHale indicated that it is also possible that some 
title 10 or Federal status military personnel might also be 
assigned to this border security mission.
    While chapter 18 of title 10 of the U.S. Code provides 
authority for military personnel to support law enforcement 
agencies under certain circumstances, and Congress has, since 
1989, provided temporary authority for the conduct of 
counterdrug activities in support of law enforcement agencies, 
and most recently, for counterterrorism activities, this new 
border security role doesn't appear to be specifically 
authorized by U.S. law. I hope Secretary McHale can tell us 
about the specific legal authority for this particular mission.
    The President's plan has implications for our military, for 
our States, and for our international relations. We need to 
know more about how units and individuals will be affected. 
Some of the tasks that Secretary McHale outlined in briefings 
yesterday, such as engineering and aerial reconnaissance, 
involve so-called high-demand, low-density assets that are 
sorely needed in Iraq, Afghanistan, and for counterterrorism 
and counterdrug missions. Moreover, on reconnaissance, the 
Government Accountability Office's (GAO) report on Hurricane 
Katrina and lessons for the military that was just released on 
Monday, states that these same reconnaissance capabilities need 
to be better integrated into disaster support missions of the 
U.S. military. So, do we have enough assets to meet all of the 
existing warfighting requirements, disaster relief planning, 
and operational requirements, and now this new border support 
mission? Those are questions that we'll have to address today.
    Our staff was further informed that National Guard 
personnel returning from Iraq and Afghanistan wouldn't be 
assigned to the border support mission for at least 6 months. 
Given that, will there be sufficient National Guard personnel 
to rotate through the Border Patrol mission for the next year 
at the levels envisioned by the plan? Also, what will the 
readiness be for the impact on the National Guard units who 
have not yet rotated through Iraq or Afghanistan, but do 
participate in the border security mission? For some military 
specializations, this border security mission will not provide 
them with training to maintaining their warfighting skills. 
Moreover, since our staff was advised that the National Guard 
units would be acquiring training that equates to their 
mission-essential tasks, would that exclude the participation 
of units such as most infantry and artillery and the like whose 
skills do not appear to match up with what might be helpful to 
the Border Patrol?
    I also hope to hear more about whether this plan has been 
coordinated with the Governors of the southern States that 
would be receiving personnel and the States that would be 
supplying National Guard units and individuals, and how it will 
be executed in coordination with them. Given the problems 
experienced at coordinating large-scale multi-State National 
Guard movements to assist the Gulf States after Hurricane 
Katrina, can we be confident that the Northern Command 
(NORTHCOM) and the National Guard are now prepared to manage 
the deployments associated with responding to catastrophic 
natural disasters and this new border security mission, and do 
so at the same time?
    On the international front, finally, the Mexican government 
stated yesterday that it would file lawsuits in U.S. courts if 
U.S. troops directly engage in detaining migrants. We've been 
told that this plan specifically prohibits the National Guard 
from undertaking any law enforcement missions, but I'd like to 
hear more about where the lines will be drawn, exactly what 
rules will apply to the use of force. In addition, it appears 
that the Mexican government was simply informed of this plan, 
rather than consulted or coordinated with, so I'm interested in 
hearing about whether there will be any coordination with 
Mexican law enforcement and military officials in the execution 
of U.S. missions.
    Finally, Canadian officials have also expressed concern 
about the impact on the northern border. So, we'd like to know 
whether we've consulted with the Canadians on this initiative 
and what will the impact be on the northern border?
    Finally, as a matter of finances----
    Chairman Warner. Whoa, that's three ``finallys.''
    Senator Ben Nelson. Three finallys. We need to know what 
it's going to cost the DOD, and how, ultimately, we'll pay for 
it.
    Thank you, Mr. Chairman.
    Chairman Warner. The staff did quite a job. I'll remind 
them next time. [Laughter.]
    I put a statement in the record. I have a similar litany of 
questions, which I thought I'd reserve. But I do want to 
include, what are the rules for the use of force by our forces?
    Senator Byrd, did you have a comment you'd like to make?
    Senator Byrd. I could make it now or later.
    Chairman Warner. Why don't we wait. Anyone else wish to 
make opening comments?
    Senator Byrd. All right.
    Chairman Warner. If not, then, Secretary McHale, would you 
please lead off?

 STATEMENT OF HON. PAUL McHALE, ASSISTANT SECRETARY OF DEFENSE 
                      FOR HOMELAND DEFENSE

    Mr. McHale. Yes, sir.
    Chairman Warner, Senator Nelson, Senator Byrd, Senator 
Reed, Senator Dayton, Senator Collins, Senator Ensign, and 
distinguished members of the committee, that was quite a litany 
of questions presented by Senator Nelson. In the interest of 
moving to those questions at the earliest opportunity, although 
I don't have a formal statement--we were not asked to present 
one to the committee--I have a very brief opening statement 
that may frame some of the issues that were referenced in the 
questions raised by Senator Nelson, and then, upon the 
conclusion of the testimony presented initially by my 
colleagues, we can move to those questions and others.
    The task of maintaining the integrity of U.S. international 
borders is assigned, by law, to the DHS. For that reason, the 
deployment of military forces along the southwest border will 
be in support of the DHS.
    The military forces, as noted by a number of the Senators, 
will be drawn largely from the National Guard. All National 
Guard Forces will be under the command and control of the 
Governor in whose State the forces are operating.
    The initial commitment of up to 6,000 military forces, on a 
rotational basis for up to 12 months, will be the first phase 
of the operation. Military support will not exceed 3,000 
personnel during a possible second year of deployments.
    The DOD will pay the costs, on a reimbursable basis, and 
perhaps we can get into that in some detail in response to 
Senator Nelson's question.
    The missions will include, for example, surveillance and 
reconnaissance, engineering support, transportation support, 
logistics support, vehicle dismantling, medical support, 
barrier and infrastructure construction, roadbuilding, and 
language support.
    The DOD will play no role in the direct apprehension, 
custodial care, or security associated with those who are 
detained by civilian law enforcement authorities. Law 
enforcement along the border will remain a civilian function.
    The National Guard missions will be substantially similar 
to the annual training missions executed as part of the 
counterdrug program along the southwest border for the past 2 
decades. The difference is that, in size of the force and the 
commitment of resources, the scope will be far greater than 
anything we have done in the past.
    In short, we will be doing essentially what we have been 
doing for 20 years, but with many more people, in many more 
locations, with significantly greater resources.
    The missions assigned to our soldiers and airmen will be 
directly related to the military skills normally associated 
with their warfighting and disaster response missions. In 
addition, DOD and DHS will use civilian contractors, when 
appropriate.
    The National Guard deployment along the southwest border in 
support of the DHS is an important, but temporary, bridge to 
improved civilian security capabilities. We will draw down our 
forces, consistent with ongoing mission requirements.
    The men and women of the DOD will work diligently and 
professionally to support the DHS, improving our land border 
security while providing excellent training to our soldiers and 
airmen.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    General Conway?

   STATEMENT OF LT. GEN. JAMES T. CONWAY, USMC, DIRECTOR OF 
                OPERATIONS, J-3, THE JOINT STAFF

    General Conway. Thank you, Mr. Chairman and members of the 
committee, first of all, for your continued support to our 
great young men and women in uniform, and second, for the 
opportunity to be here today and to offer a Joint Staff 
perspective on this pending deployment of our National Guard 
Forces to the border.
    Simply stated and upfront, the Joint Staff perspective does 
not differ at all from that of Secretary McHale or what General 
Blum will speak to you about. There's no daylight in our 
positions. We've been engaged in the planning from the outset, 
and we're fairly well-convinced that, with approved funding 
request, that we will make these deployments successful, and 
ultimately, improve the security along our borders.
    Importantly, and partially, sir, to your question, Senator 
Nelson, we have seen a decreasing number of National Guard and 
Reserve in our recent deployment to--rotations to Iraq and to 
Afghanistan. Therefore, I'm confident that these operations on 
the border will not lessen our ability to continue to prosecute 
this global war on terrorism.
    There's still a lot of planning to do. We're fairly early 
in the process, but we look forward to the planning with our 
DOD and DHS counterparts, again, with ultimate confidence that 
the mission will be a success.
    Thank you for the opportunity, sir, and I look forward to 
your questions.
    Chairman Warner. Thank you very much, General.
    General Blum.

  STATEMENT OF LTG H. STEVEN BLUM, USA, CHIEF, NATIONAL GUARD 
                             BUREAU

    General Blum. Chairman Warner, Senator Nelson, happy 
birthday.
    Senator Ben Nelson. Thank you.
    General Blum. Distinguished members of the committee, it's 
an honor to be before you today to talk about the President's 
southwest border support mission.
    I will keep my remarks short, because most of you are very 
familiar with the National Guard and what we're doing. 
Secretary McHale and General Conway have outlined, very 
clearly, the concept of operation. I think it is probably 
useful to remind members that we are building on a long-
lasting, time-proving, effective model that we have used for 
nearly 20 years on the southwest border. We are going to 
leverage all of the relationships and experience that we've 
gained since 1989 in the southwest border of our Nation with 
support of the civilian law enforcement agencies, to include 
Border Patrol, Immigration's Control and Enforcement, as well 
as the Drug Enforcement Agency (DEA) and the Federal Bureau of 
Investigation (FBI).
    The National Guard is superbly suited for this mission, in 
my view, because of these relationships, and because of the 
fact that the forces, while they will be paid for by the 
Federal Government, and the resources will be provided by the 
Federal Government, they will remain under the control of the 
Governors. That is good because the Governors are very 
concerned with what's happening within their State and the 
border with Mexico.
    At the same time, their National Guard Forces, while 
federally supported, will be supporting a Federal law 
enforcement agency for the DHS. So, in my view, it's the 
perfect selection of a force that's going to have to walk a 
balance between shared authorities and responsibilities between 
the State and the Federal Government. The resources are 
provided to the Governors. The flexibility is extended to the 
Governors, yet the support is rendered to Chief Aguilar for the 
Border Patrol in that area.
    As far as the Mexican side of the border, the States of 
California, New Mexico, Arizona, and Texas all have long-
lasting existing relationships between the State agencies and 
their National Guard and the military and law enforcement 
forces in Mexico. There's even some relationships that can be 
leveraged between the Governors of the States and the governors 
of the states of Mexico.
    So, for all of these reasons, I am comfortable with the 
mission. The resources have been identified that we will need, 
and I'm comfortable they will be provided. I am absolutely 
certain that the National Guard is up to the challenge to do 
this, because it is nothing new for us. This is not a new 
mission; it's just an existing mission that will be done at a 
much grander scale than we have done in the past.
    Sir, I await your questions.
    Chairman Warner. Chief Aguilar?

 STATEMENT OF CHIEF DAVID V. AGUILAR, OFFICE OF BORDER PATROL, 
  U.S. CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Aguilar. Chairman Warner, good afternoon distinguished 
members. It's a great opportunity for me to be here, to be able 
to speak to you and answer any questions that you might have 
relative to this undertaking.
    This undertaking is a continuing buildup of our partnership 
that has existed for over 20 years with the DOD and with the 
National Guard. That partnership has been a tremendous asset to 
the protection of this country.
    Off to my right here, I will point out, very quickly, the 
type of help that the National Guard has been involved with in 
the past in supporting us: building tactical infrastructure 
such as bollard fencing, low water crossings in areas that are 
very inaccessible to the Border Patrol. Accessibility and 
mobility to our border are absolutely critical in augmenting 
our capacity and our capabilities as we work towards protecting 
our border.
    As most of you have heard, our operations now are centered 
very much in very rural and remote areas of our country. The 
capabilities, the equipment, and the capacity that the National 
Guard will be bringing to our support will be a tremendous 
force multiplier. I, again, just want to revisit that the type 
of work that they will be doing for us is engineering. They 
will be playing the part of eyes and ears for our enforcement 
personnel, thereby building up a tremendous capacity even for 
the Border Patrol Agency that we now have currently on the 
ground.
    Now, this is an interim, it is a bridge, towards the 
buildup of the 6,000 Border Patrol agents, between the 
beginning of fiscal year 2007 and the end of calendar year 
2008. So, there will be a melding and a transition, if you 
will, of the resourcing on the borders between the National 
Guard augmentation that's going to start and the actual 
permanent resourcing of the Border Patrol assets that are being 
continued to build through the end of calendar year 2008.
    So, again, I thank the panel here for the opportunity, and 
I will close out my oral statement just by saying that we are 
very proud of our past partnership with DOD and the National 
Guard, and we are very much looking forward to our continued 
joint efforts in continuing to work to protect our country.
    Chairman Warner. Thank you very much.
    We'll go into a round of 6 minutes each, and we'll invite 
our distinguished colleague, Senator Craig, to join us in this.
    Senator Craig was among the very first who recognized the 
value of this option and spoke frequently about it, and, 
indeed, did counsel the President on it. We thank you for 
joining us.
    I invited other Members of the Senate on border States, so 
they may appear from time to time.
    I'll go right into the questions.
    You said, very clearly, that the role and mission of the 
National Guard would not be law enforcement, even though under 
the law of Posse Comitatus, they could perform law enforcement. 
Then it was stated clearly that these troops will be under the 
command and control with respect to Governors. The Governors 
might take a different view as to whether or not they wish to 
have their forces participate in some measure of law 
enforcement. So, I think we'd better get it clear, if they have 
command and control, how can we take away from them one of the 
major features of that responsibility of guardsmen?
    Mr. McHale. Sir, we can only do it by agreement with the 
Governors. They have to voluntarily relinquish that power.
    Chairman Warner. All right.
    Mr. McHale. It's a prerequisite for Federal funding under 
title 32. Your observation is correct. In title 32, these 
forces could be used for law enforcement. A policy decision has 
been made not to use our National Guard for law enforcement. In 
order to receive the Federal funding for title 32, in a 
memorandum of understanding, a draft of which is being prepared 
now, the Governors would have to agree to use these forces in 
support of Customs and Border Protection, and not for law 
enforcement.
    Chairman Warner. Is that generally understood, with all of 
our witnesses? General Conway? General Blum?
    General Blum. Yes, sir. Because it's federally funded, that 
means what we do with those Federal funds, even while it is 
under the command and control of the Governor, must be vetted 
and approved by the Joint Director of Military Support (JDOMS) 
or the DOD. So, the Governors, as long as they use their forces 
operating----
    Chairman Warner. You giveth with one hand, and taketh away 
with the other, I think.
    General Blum. Yes, sir. Now, if the----
    Mr. McHale. Take a little bit away with the other.
    General Blum. If the Governor----
    Mr. McHale. If it's significant----
    General Blum. If the Governor wants to----
    Chairman Warner. I'm not arguing the point. I want to lay 
it out clearly.
    Mr. McHale. Yes, sir.
    General Blum. You have it correct, Mr. Chairman.
    Chairman Warner. Senator Collins' committee, of which I am 
a member, went into the command-and-control structure in 
Hurricane Katrina and other situations, and there were clearly 
some problems there.
    Second, Chief, as you well know, better than all of us, 
there's a variation in that border. There are variations in the 
terrain, all types of situations there. One Governor might look 
at how best to enforce that border in his or her perspective, 
another may have a different view. Supposing two Governors are 
of different views as to how this augmented border patrol by 
the National Guard should perform in their respective States?
    Mr. Aguilar. One of the things that I think we need to go 
back on, Mr. Chairman, is the history. We have consistently 
operated under these sets of rules that we're going to continue 
to operate under. That has never occurred. Should that occur, 
though, there is an understanding that the Customs and Border 
Protection will basically build the strategy and the 
implementation plan as to what will be followed in building the 
tactical infrastructure.
    Now, one of the things that we have done is, each one of 
the Governors, and each one of their State homeland security 
directors, has been briefed, in prior instances, on our plan, 
on our strategy, on our requirements.
    Chairman Warner. That's very helpful.
    There's concern across America for the welfare of the 
National Guard and their families. They have performed 
brilliantly in operations--and still are--in Afghanistan and 
Iraq. There's concern that they're stretched. I use that word 
simply because it's the word in the discussions all across 
America around the dinner table.
    Mr. McHale. Yes, sir.
    Chairman Warner. So, I want to first ask General Conway, 
then General Blum, are you satisfied that this will not be 
overtasking or stretching the National Guard?
    General Conway. Sir, I am, for a couple of different 
reasons. One, the National Guard and the Reserve----
    Chairman Warner. Let me stop you--there are roughly 460,000 
guardsmen. Is that correct?
    General Conway. Yes, sir. 462,000--I think, was the figure 
I saw this morning.
    Chairman Warner. 462,000--and this initial cadre will 
amount to somewhere between 6,000 and 7,000, correct?
    General Blum. Yes, sir.
    General Conway. Yes, sir.
    Chairman Warner. So, it's a relatively small part.
    General Conway. Yes, sir.
    Sir, from a larger picture, we have seen, as I mentioned in 
the opening comment, a decreasing scale regards the employment 
of the National Guard and the Reserve and the rotations into 
Iraq and Afghanistan. For 2005-2007, it was roughly 40 percent. 
For 2006-2008, it was 28 percent. For 2007-2009, it's going to 
be down to about 19 percent. So, they have served their country 
beautifully, and now the United States Army, with 
modularization, doesn't put so much of a drain on them.
    Senator Nelson did comment, where there is a requirement, 
now persists more with the low-density/high-use types of folks, 
and we're going to watch closely what this deployment means in 
that context.
    But the other thing that I would offer is that the period 
of time that they will be employed on the border very much is 
going to match up to their annual Active-Duty training 
requirements to begin with. This is purposefully done this way 
to help limit the stress on them and their families.
    Chairman Warner. Thank you.
    I'm looking at that wife and two or three children around 
their dinner table waiting for their guardsman to get back from 
a deployment to Iraq or Afghanistan, and learning of this. Give 
us the assurance that that individual, as he comes back, has, 
at my understanding, at least 90 days to 6 months in which to 
reunite with this family and his local National Guard unit 
before any further deployments. As such, that individual case 
will not exacerbate that family and its stress on it, at this 
time.
    Am I correct?
    General Blum. Mr. Chairman, you are absolutely correct. In 
no case will a returning veteran from a global war on terrorism 
or an extended deployment be required to be part of this 
mission. This mission is designed to have great flexibility in 
title 32, where we can help the employer and the family use the 
skills of these citizen soldiers and air men and women in the 
same model of their normal expectations. Their 15-days annual 
training a year will be applied to this. Those that will be 
part of a duration force, or those that will be there longer, 
will be there with their own consent and will be volunteers.
    We feel very comfortable there's enough of those out there.
    Chairman Warner. While you've been drawing initially on the 
guardsmen in the respective States, will those guardsmen, 
first, work on their border, or will they be used on other 
borders? Second, will you not be accessing guardsmen from the 
other States, all across America, much like you did in Katrina?
    General Blum. Sir, you again have it correct. The people 
from California will mostly be working on their own borders. Of 
course, they have a seam with their neighboring State. That's 
why the rules of engagement (ROE) and rules for the use of 
force (RUF) are going to be common amongst all four States and 
are being vetted with the attorneys general and the DOD general 
counsel to make sure that we don't have any contradictions in 
the ROE or RUF. We're going to basically use the existing ROE 
and RUF from the counternarcotics National Guard effort to use 
that as our model, because we would like to keep them exactly 
the same for both missions, if we possibly can.
    Chairman Warner. Last question to you, Secretary McHale. In 
listening to your opening statement very carefully, you said, 
``They'll bring a lot of resources with them.'' Let's talk 
about those resources because there's tremendous technological 
advancements in how to detect and provide security on a border. 
I think it would be wise if you shared with us a pretty full 
menu of what you're going to bring. For instance, you have 
motion detectors, you have infrared; indeed, you can utilize 
satellites. You have the unmanned aerial vehicles (UAVs). So, 
let's talk about that. That's what a lot of these guardsmen 
will bring with them not only the material itself, but the 
knowledge as to how to use it.
    Mr. McHale. Sir, I think you made a pretty good start in 
listing the kinds of capabilities that we would expect to use 
along the southwest border. Those are the same capabilities, 
for the most part, that we have been using along the southwest 
border and on other occasions at other locations throughout the 
United States. Last year, we had Operation Winter Freeze along 
the Canadian border and upstate New York and Vermont, and used 
many of the same capabilities in that region at that time.
    Let me just give you some examples. Because we do not 
engage in law enforcement either in the counternarcotics 
mission or in the mission that we propose, we provide support 
to law enforcement agents within the Border Patrol. So, a 
typical mission--I flew on one of these shortly after I became 
the Assistant Secretary, went down to the Texas border with 
Mexico. It was an Active-Duty unit, not a National Guard unit. 
It was a Marine Reserve aviation unit, helicopter unit. We went 
up at night. We had what's called a forward-looking infrared 
(FLIR) capability, a really extraordinary capability. General 
Conway can speak more authoritatively on it than I can. But, 
just as a civilian, using the right kinds of goggles with an 
infrared searchlight invisible to the naked eye, you can scan 
vast areas of the desert and note any movement below, observe 
that movement, and then get on the radio or by other means of 
communication notify Customs and Border Protection where to 
interdict, with that invisible observation capability, someone 
illegally crossing the border. That's an example.
    Chairman Warner. Basically technologically will provide a 
virtual wall. Is that a correct statement?
    Mr. McHale. I think that's a good way to describe it. I 
don't want to give the false impression that it would be an 
impenetrable wall, but certainly it is a major improvement for 
border security.
    Chairman Warner. Right. I think we should close one gap 
here, General Blum. Unfortunately, some of these people who are 
coming in illegally carry weapons and pose a danger, whether 
it's Border Patrol--the Chief can speak to that, because I--by 
the way, I saw you on television. I thought you handled your 
questions very well, Chief, in an in-depth interview.
    Mr. Aguilar. Thank you, sir.
    Chairman Warner. You addressed the fact that you had lost 
some men, brave men, who are down there trying to defend that 
border. But our guardsmen will have live ammunition in the 
event they have to defend themselves, is that correct?
    General Blum. Yes, sir. Everybody that is employed in this 
mission that would be in a mission set where their life would 
be threatened or we think that they could encounter danger will 
have the right of self-protection, and will be armed and able 
to do that.
    Chairman Warner. Accordingly. Thank you.
    Senator Nelson.
    Senator Ben Nelson. Thank you very much, Mr. Chairman.
    Since I asked too many questions earlier, I'll try to limit 
it right now.
    Chairman Warner. Oh, no, you go ahead. It's your birthday. 
[Laughter.]
    Senator Ben Nelson. First of all, in terms of the number of 
personnel that would be required, I believe you've stated, 
General Blum, that as many as 156,000 troops would be required, 
on a rotational basis, to deploy 6,000 in the first year and 
3,000 in the second year, and that the approach would be to try 
to have as many of the National Guard troops from the States 
where the mission will be accomplished. If that's the case, 
there are about 50,000 guardsmen in those States. So, with my 
quick math, we're going to be taking people from other States, 
no matter how many we try to keep locally involved. How are we 
going to not be able to accomplish that?
    General Blum. Sir, that'll be through prearrangement 
agreements between the donor Governors and the recipient 
Governors. It works exceedingly well. I think you saw it in 
evidence in the crucible of time constraints and urgency in 
Hurricane Katrina. We don't have those constraints. We have the 
time to coordinate--precoordinate. There's great flexibility 
here. If there is a reason that a Governor has a capability 
that we desire that is not available, even at the worst case, 
let's say it's 160,000 citizen soldiers and airmen--because I'm 
going to leverage the capabilities of the Air National Guard, 
as well--even if that were the case, I still have 300,000 other 
soldiers to rotate through here. You have to remember that we 
regenerate our force at about 60,000 a year. So, in a 2-year 
period, we'll have an additional 50,000 or 60,000 trained 
troops to add to the inventory that we already have. I don't 
see this as an insurmountable challenge. I certainly don't see 
less than 2 percent of the force being dedicated to this 
mission, distracting from our ability to do hurricane relief or 
flood relief or generate forces overseas.
    Senator Ben Nelson. What does this do to the proposal that 
we've considered from time to time so that somebody who signs 
up for the National Guard could anticipate a deployment once 
every 5 years, or for a multiple period of time where they 
wouldn't expect a deployment? What does this do to that?
    General Blum. It doesn't alter that contract in any way, 
shape, or form, sir. Every National Guardsman knows they have 
15 days of annual training that they're going to have to 
perform during the year. The only difference is, they didn't 
know they were going to have to perform it on the southwest 
border. That will be a surprise for them, but probably a 
welcome surprise, because engineers, as you well know, having 
so many of them in your home State, like to do things that are 
enduring. They like to build something that lasts after they 
leave. To go to some training area and build a road and then 
push the dirt back over when you leave is kind of demoralizing. 
For them to leave enduring projects like this, actually gives 
them a great deal of self-satisfaction. I think they'll welcome 
this mission.
    Senator Ben Nelson. What about the equipment shortage that 
we've been dealing with as a result of the equipment that's 
being left in Iraq and Afghanistan and the equipment shortage 
we're trying to figure out a way to replenish? Are we going to 
have the adequate equipment?
    General Blum. That's clearly a challenge, but when Chief 
Aguilar gives us the requirements, we will identify the 
equipment one time, and we'll leave it in place for the 
duration of the mission, so it won't require additional sets. 
We will put a maintenance team down there to make sure that the 
equipment stays operational. Then we'll just rotate the 
soldiers and airmen onto the equipment, rather than to incur 
the expense of moving the equipment for each rotation.
    Senator Ben Nelson. What about the medical mission? That 
seems like it's a new idea. It's not something that we've heard 
of in conjunction with some of the other missions.
    General Blum. Anytime we put soldiers and airmen in any 
kind of an operational mission in any kind of numbers, we 
provide medical support. The medical support would be required 
for our own forces to maintain----
    Senator Ben Nelson. For our own forces.
    General Blum.--their health and in case they're injured in 
the construction work or in--it is--as the chief said, it's a 
rural--I mean, they could get a spider bite or a tarantula bite 
or a snake bite, so we'll have medics there for that. The fact 
that there are additional medical people there is not going to 
be bad, either, because they can also render assistance to some 
of these people that are in dire condition when they come 
across the terrain that you see on these maps.
    Senator Ben Nelson. I'm glad you've pre-warned them about 
the spider bites.
    General Blum. Yes, sir.
    Senator Ben Nelson. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    General Blum, some border State Governors have welcomed the 
prospect of National Guard troops supporting border security 
missions. For example, Arizona's Governor has welcomed this. 
But others, such as California's Governor, have expressed 
reservations. So, help us understand better what would happen 
in a State where the Governor does not want to deploy National 
Guard Forces? I understand that the Federal Government would 
bear the financial burden of that decision, but would National 
Guard troops from other States be sent in for border security 
purposes, into a State where the Governor does not want that 
mission assigned to the National Guard?
    General Blum. No, ma'am. You've asked a very good and 
difficult question. Here's my honest take on it. I've talked to 
all of the Adjutants General who are appointed by the 
Governors. So, they're fairly close to the Governors' thinking. 
They welcome the mission, which tells me that the Governors, 
once the mission is clearly explained to them and they 
understand the parameters to it, will probably be receptive to 
it. The Governors have their own prerogative. If a Governor 
truly did not want this mission performed in their State, then 
the option is there for the President and the Secretary of 
Defense to federalize the National Guard, and then the mission 
would be conducted, and then it would be without the control of 
the Governor of their forces. Most of the Governors were most 
concerned of who was going to pay for it--the Federal 
Government's paying for it--who's going to provide the forces--
if it's going to be National Guard Forces, all of the Governors 
that I have had any conversation with were very concerned that 
they remain in charge of their forces within their State. This 
proposal allows both of those to occur. I think once the 
concept is well understood, because there's a lot of 
misinformation out there, because we didn't have it all put 
together until very recently--it is now time to make sure that 
the information gets out to all concerned parties--and once 
they see the goodness of it, I would be quite surprised if any 
of the Governors balked at having this activity occur in their 
State. All of the border State Governors are concerned that the 
border is secure. They are the immediate recipients of the ill 
effects of that nonsecure border. So, anything that we can do 
to help the Federal law enforcement agency--in this case, the 
Border Patrol and Customs--to do a better or a more effective 
job on the border that happens to be part of their State, I 
think they would welcome, especially when they don't incur the 
cost to do it.
    Senator Collins. General, another issue is that the plan 
apparently envisions that the troops would deploy for 2 to 3 
weeks at a time, as part of their annual training requirement. 
Do you have concerns that you're going to be taking away from 
the training that normally would occur during that sustained 
training period, training that helps our troops be better 
prepared if they're deployed overseas or if they're used in a 
natural disaster? Aren't you taking away from vital training 
time?
    General Blum. I would be if we were not being selective on 
the skill sets that we're using for this mission. Chief Aguilar 
has outlined what he thinks he needs the National Guard to do, 
and we will match the military's skill set. For instance, if he 
needs medical support, we will put medical people in there. So, 
the training that they are doing is equally applicable to their 
overseas war mission as it is to their homeland defense mission 
or their hurricane relief mission or the support to civilian 
law enforcement mission. If there are communications 
specialists that are needed to bridge some places where there 
are communications gaps, that is exactly the same military 
communications skills. This is a rather remote area. It really 
represents a lot of our expeditionary locations that we operate 
around the world. It's a perfect training area, frankly for 
about three-fourths of our mission sets. So, helicopter 
training will not be degraded by this. As a matter of fact, I 
think they'll probably get more night-vision flying in this 
mission than they would normally, because of the airspace along 
the border and because of the mission-set requirement the 
Border Patrol has. I could go on and on with this, but I--the 
engineers, I already told you, normally we build things and 
then knock them down, because they're just done at a training 
area. To build something that's enduring and has an operational 
purpose to it, to me, is a win-win for the taxpayer. You get 
better military training, you have more motivation on the part 
of the soldiers to do this, and they know that it's important 
and it's going to make a difference in securing their national 
borders. For the National Guard not to help guard the Nation 
would be a little inconsistent. So, I think they can see the 
wisdom of this, and they'll see it as a very worthwhile 
mission.
    Senator Collins. Thank you.
    Chief, you've previously told my committee that the Border 
Patrol could not train more than 1,500 additional agents per 
year. I know you're ramping that up, but that is the current 
capacity. There are a lot of significant differences in how the 
National Guard is trained, versus how Border Patrol agents are 
trained. Would you agree with that?
    Mr. Aguilar. Absolutely. Yes, ma'am.
    Senator Collins. I understand that this mission is going to 
be structured in a way that you're not going to expect National 
Guard units to perform the kind of enforcement activities that 
Border Patrol agents perform. I think that's very important. 
But I'm still very concerned about whether we're going to be 
putting National Guard troops into positions for which Border 
Patrol personnel train extensively and intensively over a great 
period of time. We don't want people who aren't trained put in 
positions where they're simply not equipped to deal with the 
challenges. Do you have any concerns about that at all?
    Mr. Aguilar. Absolutely, ma'am. But the beauty of this 
mission is the following, right now, by the National Guard 
supporting us, what it is going to allow us to do is take those 
highly-trained, professional, and properly-trained Border 
Patrol agents that are now not deployed, doing what they were 
trained for, because we lack the capacity to resource, for 
example, surveillance posts or missions, sensor missions, or 
have them as spotters on some of our aviation flights, that 
they are having to perform those duties. When the National 
Guard steps in and does those jobs, not in the area of 
detention or arresting and things of that nature--it will allow 
us to place those properly-trained officers on the line, being 
supported by the National Guard, and the National Guard acting 
as a force multiplier, to give us greater capacity.
    When the National Guard builds for us, engineering 
missions--and the reason I put this fence up here, by the way, 
this depicts the border in San Diego. This is what I call a 
``mature border.'' Most of the tactical infrastructure that you 
see here, the primary fence, the middle road, the lighting, 
sensors that are in this area that you don't see, and remote 
video systems, were actually placed by the National Guard. So, 
that kind of placement of engineering work gives us a 
tremendous amount of force multiplier. In the past, where it 
would take us upwards of 100 agents in some areas to take care 
of a mile of border, it's now taking us five or six, because of 
this force multiplication factor.
    [The information referred to follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Collins. Thank you.
    General Blum. Senator, they were also done--those missions 
were performed in the 2-week rotations.
    Mr. Aguilar. Yes.
    General Blum. So, as I say, I don't want to make this look 
too simple, because it's not that simple. But it's not 
something that's new and unusual to us. We're taking a time-
proven model and just expanding it. The Secretary of Defense 
was very specific to General Conway, myself, and Secretary 
McHale, that the National Guard would not be approved to 
perform law enforcement operations where it would take a 
trained Border Patrol or Customs enforcement officer to do the 
training, because we're not trained to do what they do. So, we 
don't do what they do. We are trained to do, that enables them 
to do what they're trained to do, even better.
    Chairman Warner. Thank you very much.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman.
    I know that the fine members of the National Guard can 
handle virtually any mission that is thrown at them. Their 
ability to adapt and perform extraordinary missions is 
legendary, whether responding to disasters here at home--and 
we've seen much of that in West Virginia--or fighting wars 
overseas. But Congress has the responsibility to ask questions 
about whether adding new missions to the National Guard is the 
best use of these citizen soldiers.
    Nine times, I have offered amendments in the Senate to 
increase funding for border security and to hire thousands of 
new Border Patrol agents. Nine times, the administration has 
opposed my amendments as being extraneous, unnecessary spending 
that would expand the size of government. If we had spent that 
money beginning in 2002, we wouldn't be calling on the National 
Guard for so much today. This latest proposal to send troops to 
the border should not distract from the consistent record of 
this administration of opposing my amendments to tighten our 
borders.
    What is the rationale, Secretary McHale, for determining 
that 6,000 National Guard troops should be sent to the border? 
How is that number justified? Was it pulled out of the air? How 
did we reach that number?
    Mr. McHale. Sir, the number that has appeared in the 
proposal is up to 6,000. We don't know the precise number, at 
this point, for the first year of deployment. For the second 
year of deployment, it's up to 3,000, for a possible second 
year. That number was a professional judgment based on a number 
of factors, in close consultation, beginning the middle of last 
week, with Customs and Border Protection. We have a joint 
planning group that's working these issues. We viewed the 
missions as an extension of the type that we had been 
performing for counternarcotics over the past 2 decades. We 
asked Customs and Border Protection, ``Beginning with those 
missions, assuming you'd like us to ramp up our support for the 
kinds of things that I referenced to Senator Warner a few 
minutes ago, the aviation reconnaissance, what else would you 
want us to do in order to free up those agents,'' that the 
Chief talked about a few minutes ago, ``so they could do law 
enforcement?'' They gave us some preliminary assessments as to 
the mission sets.
    We also look at deconfliction of those numbers to determine 
what size of force we could sustain over a period of time 
without adversely affecting the National Guard's ability to 
contribute to overseas warfighting or a potential response, 
let's say, to a hurricane in the Gulf coming up during this 
summer's and fall's hurricane season.
    So, we took our past experience from the counternarcotics 
program, we built mission sets upon it that would be unique--
just a few, but would be unique to the missions that we now 
have in mind, and then we tried to determine sustainability. We 
came up with a professional judgment that was an approximation 
of 6,000.
    Senator Byrd. Were there any suggestions contrary to that? 
Any proposal that it should be 8,000 or 5,000? Was there any 
discussion or debate?
    Mr. McHale. Sir, for due diligence, if we didn't have 
alternative views presented, we wouldn't have been doing our 
job. So, the answer to your question, sir, is yes, there were 
alternative proposals presented, with different numbers. They 
were considered. They were evaluated. At the end of the day, we 
thought 6,000, or a number up to 6,000 in that first year, was 
the most appropriate.
    Senator Byrd. I'm told that the DHS is still trying to work 
out what these 6,000 troops will actually be doing. Why did the 
administration announce that troops should be sent to the 
border, 6,000 of them--up to 6,000, as you say--before the 
administration could plan for the mission?
    Mr. McHale. Sir, I think an accurate way to describe that 
is, while we didn't know how many roads we would build, or for 
what distance, we knew for sure we'd be building roads. We 
didn't know how many helicopters, precisely, we would put up 
for aviation reconnaissance, but we knew we'd be putting a 
substantial number up. I could go through the mission sets in 
that manner. So, we knew the kinds of things we'd be doing, and 
we knew it at approximately what level of activity we'd be 
involved. But, sir, you are correct, by close of business 
today, I believe, the DHS is to present to the DOD, coming out 
of that joint planning group, a more detailed picture of these 
missions. We have until Friday to finish our preliminary 
assessment of how we, in DOD, working with the Joint Staff and 
the National Guard Bureau, will match resources to the 
requirements.
    So, we expect a clearer picture by close of business today, 
and we expect to have a DOD response by Friday.
    Senator Byrd. General Conway, you're the expert in military 
planning. Is it standard military procedure to determine how 
many troops will be deployed before the military determines 
what tasks need to be accomplished? Isn't this mission turning 
the military planning process on its head?
    General Conway. Sir, it may be atypical, but it's not 
totally out of the ordinary or unusual. In this case, we have 
been given a concept--a general concept--a verbal concept, 
albeit, at this point. We have assessed what we thought might 
be a rough troop-to-task associated with that, given the 
various functions that the DHS and the Border Patrol thinks 
that they would need. We continue to flesh it out as we go. So, 
the answer is both yes and no, sir.
    Senator Byrd. Do you have any questions about this number? 
Are you satisfied?
    General Conway. Sir, I think it's the high end. General 
Blum could probably answer it better than I. But I think we 
have the opportunity to employ up to 6,000. Whether or not 
we'll actually come to that number will, again, be determined 
as we examine the details. I don't think it will exceed 6,000.
    Senator Byrd. How do you feel about that, General Blum?
    General Blum. I was asked early on, sir, as Secretary 
McHale alluded to. The planners or the people considering the 
employment of the National Guard were very sensitive to our 
responsibilities with the upcoming hurricanes. They were very 
sensitive to the ongoing weather patterns that we respond to 
every year, whether they're hurricane seasons or not. They were 
also mindful that we are absolutely essential to the deployment 
of overseas Army and Air Force forces for the combatant 
commanders. So, the question was asked, how many National 
Guardsmen could we use, without mobilizing them, that would be 
on a volunteer basis, where it would not interrupt their 
civilian employment, where it would not interrupt or break the 
contract with our one-in-six utilization for overseas, where it 
would be a normal expectation on the part of the citizen 
soldier, his family, and his employer, and still be able to do 
all of these things? I told them that I could handle somewhere 
on the high end of about 6,000. That may have been what drove 
the number, ``up to 6,000,'' sir, but I am not absolutely 
certain as to how that happened. But that is a very logical 
outcome of how the number 6,000 took a life of its own.
    Chairman Warner. Thank you, Senator Byrd.
    Senator Byrd. Thank you.
    Chairman Warner. Thank you very much.
    I think it would be important if Chief Aguilar had an 
opportunity to respond to the important line of questioning by 
Senator Byrd. Did you have anything to contribute as to this 
end strength? Were you consulted, and you're comfortable?
    Mr. Aguilar. Yes, sir. I believe that the universe of 6,000 
is where we started our conceptual planning. One of the things 
that's very critical here, that, as the Secretary mentioned, 
this afternoon we will start aligning the universe of 6,000 
that's going to be available to us, our requirements and needs, 
and how those two match up.
    Chairman Warner. Good.
    Mr. Aguilar. I feel pretty confident that we will be 
utilizing up to 6,000, or close to it, in the first year.
    Chairman Warner. Thank you very much.
    Senator Ensign.
    Senator Ensign. Thank you, Mr. Chairman. Thank you for 
having this timely hearing, as the bill that we have on the 
floor, obviously, dealing with immigration, makes this a very 
timely hearing.
    Chief, I went down to, about a little over a month ago, 
Yuma, Arizona, and just a couple of observations. One, that the 
Border Patrol--your folks are very professional and very 
dedicated.
    Mr. Aguilar. Thank you.
    Senator Ensign. One thing that really struck me was that 
since September 11, and where the whole idea of terrorists 
coming into our country--even the Border Patrol agents take 
their jobs a lot more seriously than they did pre-September 11.
    Mr. Aguilar. Yes, sir.
    Senator Ensign. You can just see it in their attitudes and 
hear it from them. I was very impressed by a lot of the work 
that you all are doing down there. I was also impressed that 
you're overwhelmed, that this help with the National Guard is 
something that is very needed. A little over a month ago, I had 
an amendment to the immigration bill for the States to be 
reimbursed for their National Guard troops to be used on the 
border down there, and I asked the question before all this 
became public while I was down there, if you all could use the 
help. We received similar responses to what you are doing 
today. So, I think it is an initiative whose time has come. I 
have an amendment to this current bill that hopefully will be 
debated in the next couple of days. We're working with you all, 
with the National Guard, with this committee and the 
administration, trying to craft the exact language that what we 
first had. But it basically will have the same effect as what 
the President has called for.
    One of the side benefits that I thought about, as you were 
just talking--because when I was down there--you have 
difficulty not only in training new Border Patrol agents, but 
in recruiting.
    Mr. Aguilar. Yes, sir.
    Senator Ensign. It takes you, and I forget the numbers, it 
was something like 300 recruits for going out there to get one 
agent. It would seem to me that if you have people going 
through down there for a 2-week period of time, you may end up 
with recruits, somebody who said, ``You know what? This is a 
line of work that I may want to go into,'' and they're part of 
the National Guard, and now, as a citizen, they may want to be 
part of the Border Patrol down there. I thought that would be a 
very positive thing to do.
    Chairman Warner. Senator, I have to tell you that, at 
lunch, Senator Craig and I talked about that very concept. We 
may try and formulate something by way of an incentive----
    Senator Craig. The legislation is under writing.
    Chairman Warner.--an incentive for people to look into 
that.
    Senator Ensign. Yes, it is desperately needed. Senator Byrd 
mentioned--I know he's walking out of the room, but, Senator 
Byrd, you mentioned your amendments the administration had 
opposed on increasing the number of Border Patrol agents. I 
offered the amendments to Senator Collins' intelligence reform 
bill, for the 10,000. We had actually cooperation from the 
administration. So, I don't know--I felt that there was a lot 
of cooperation for increasing the number of Border Patrol 
agents. The key now is to make sure that we continue to fund 
the new ones that are going forward so that this National Guard 
duty is temporary, it's not a permanent thing. I think it's 
absolutely critical that we do that.
    But, General Blum, I wanted to address with you the issue 
of the National Guard, the willingness it would seem to me that 
people who signed up from the National Guard are there, they 
believe in what they're doing, because they want to help the 
country. I think, across the country, what they saw with 
Hurricane Katrina, those were all volunteers, as I remember you 
coming in and briefing us and told us, ``Those were all 
volunteers.'' It would seem to me that you would have a lot of 
people in the National Guard--even if they weren't called up, 
there would be a lot of people in the National Guard who 
understand what a huge national problem this is--from a 
security problem, from an immigration problem, from a drug 
problem, from all kinds of problems--that they would even 
cherish going down there, and look forward to this mission. Any 
comments that you have on that?
    General Blum. Senator, as I said a little bit earlier, it's 
tough to call yourself to the National Guard or be a member of 
the National Guard as a volunteer for a force with that label 
that is not going to guard the Nation. All of our citizen 
soldiers and airmen understand that this is a very serious 
issue facing our Nation, and it has security implications. 
There will be no problem supporting the numbers of citizen 
soldiers that we've described here today, in a volunteer 
status, in an annual training rotational status, where it 
doesn't require involuntary mobilization and long periods away 
from home. We can sustain this operation. I think, as I said, 
they will walk away leaving their time on the southwest border 
feeling a great sense of satisfaction that they did make a 
difference and they did make the borders of their country 
safer, or at least attempted to.
    Senator Ensign. Right. You made a comment about the 
Governors and the misunderstanding. I remember hearing 
yesterday, I was watching the press, and I saw the Governor 
from New Mexico on. He was talking that he needed his National 
Guard for fighting wildfires and things like that. The 
proposal--my proposal--and I know the administration's 
proposal--isn't just Arizona's National Guard or just New 
Mexico's National Guard or just Texas's National Guard. This is 
the National Guard coming from all 50 States. So, no one 
National Guard is going to be burdened tremendously, from what 
I understand the administration's proposal, as well as mine.
    So, I think you're correct--and, Secretary McHale, you may 
want to comment on this--that if the Federal Government is 
paying the bill, and they're coming as a volunteer basis from 
all over the country, it would seem to me that most of the 
concerns that the Governors, at least, have expressed in the 
press would be taken care of. Would you like to comment on 
that?
    Mr. McHale. Senator, I think that's true. I want to be 
absolutely candid with the members of the committee. This is an 
evolving mission requirement. As we work through challenging 
questions every day, we come up with additional answers that 
appropriately modify the mission.
    So, let me just give you a quick example. We had originally 
thought that this mission would be performed overwhelmingly by 
National Guard doing their annual duty. It then was brought to 
our attention that some Governors, taking a point of view 
different from that, apparently, of the Governor of New Mexico, 
expressed an interest in using guardsmen from their States for 
extended periods of time in greater numbers, beyond 2 or 3 
weeks. The Secretary of Defense made a decision that we would 
accommodate that. We want this to be a partnership. So, if 
there's a Governor who says, ``I have additional National Guard 
Forces. I want to bring them on Active-Duty for 6 weeks, or 2 
months, from my State, on our own border with Mexico. Will DOD 
work with us on that?'', the answer is yes.
    Senator Ensign. In that evolving mission--I don't know if 
you want to look at this, as well--because sometimes when 
you're in the National Guard, you may actually be in between 
jobs or something like that.
    Mr. McHale. Yes, sir.
    Senator Ensign. The accommodation--that's one of the 
reasons some people do volunteer at various times. It would 
seem to me that would also be a good thing to look into, not 
just from a State perspective, but from an individual, that 
maybe it would be a good kind of a bridge for them, as well.
    Mr. McHale. I think that's true. At the end of the day, 
this requires a partnership with the Governor, who will be the 
commander of forces, all National Guard Forces, within his or 
her State. So, if there are National Guard Forces from the 
State that the Governor would like to roll into the task force 
in greater numbers for a longer period of time, we'll try to 
accommodate that. If there is a Governor who has a concern 
similar to that of Governor Richardson where he feels that he 
has a small number of forces and would prefer to have National 
Guardsmen come in from outside the State on annual training 
duty, we'll accommodate that, as well.
    Senator Ensign. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator.
    Senator Dayton and colleagues, would you permit the chair 
to recognize Senator Craig for just 2 minutes, to put his 
statement into the record?
    Senator Craig.

  STATEMENT OF SENATOR LARRY E. CRAIG, U.S. SENATOR FROM THE 
                         STATE OF IDAHO

    Senator Craig. Mr. Chairman, first and foremost, thank you 
for holding this hearing. It is so timely, as with the 
President's announcement and the crafting of the mission that 
this is at hand.
    To you, Mr. Secretary, to the generals, to you, Chief, 
thank you very much for what we have learned and gained today. 
From the time that many of us looked at this, and I recognized, 
as some clearly did, that this was not only an issue that would 
allow us to shape a more comprehensive immigration reform bill, 
with the satisfaction of the American people, that we were 
working overtime to secure the border, but it really was a 
national security issue--and the Chief knows it better than 
anyone else--of the kind of OTMs, or other-than-Mexican 
nationals, that are coming across the border at this moment.
    Mr. Aguilar. Yes, sir.
    Senator Craig. Chief, let me go to what the Senator from 
Nevada just said. The chairman and I had a dialogue today about 
the potential of crafting legislation that created some degree 
of incentive for those young men and women who will come to the 
border in this new mission, who might see their life as a 
member of your organization. Obviously, we would think they 
would be a leg up from the beginning because of their 
experience in the National Guard, in our military, and then to 
move into your system. Your reaction to that idea?
    Mr. Aguilar. I think it's absolutely great. We would 
proudly welcome any members of the National Guard or the 
military. We, in fact, have several members of the United 
States Border Patrol that are actually in the National Guard, 
and that are serving foreign as we speak. The training, the 
experience that they bring, is in fact something that we 
welcome, yes, sir.
    Senator Craig. We'll work on that. I'll work on that with 
the chairman and see if we can't offer that to our colleagues.
    I'd ask unanimous consent that my full statement be made 
part of the record.
    Chairman Warner. Without objection.
    Senator Craig. To the members of this committee, thank you 
for the courtesy.
    [The prepared statement of Senator Craig follows:]
              Prepared Statement by Senator Larry E. Craig
    Chairman Warner, members of the committee, thank you for giving me 
this opportunity to discuss with you the recent announcement by the 
President to send National Guard troops to the southern border to 
provide assistance to the Border Patrol.
    Mr. Chairman, let me first remind the members of the committee of a 
certain event in our recent history. On September 11, 2001, our Nation 
was stunned. On that very day our National Guard was sent to secure 
borders, airports, nuclear facilities, and other critically important 
infrastructures. Further, we cannot forget that on the heels of 
September 11, the National Guard stepped up and provided the security 
for the 2002 Winter Olympics in Salt Lake City.
    It was the National Guard who filled in the security gap at our 
airports until the Transportation Security Agency (TSA) agents could be 
stood up and trained. I cannot stress enough how this is the perfect 
example of how well our National Guard can provide emergency assistance 
and a stop-gap until more Border Patrol agents are trained and the 
Nation reaches a solution for our borders and illegal immigration. 
Simply put, the National Guard's performance during times of crisis and 
emergency is indicative of their future performance on the border.
    The National Guard, without question, already has the expertise and 
capability to provide for this short-term mission and provide strong 
support to Border Patrol agents. The National Guard's effective 
communications, personnel, and command and control operations will 
provide a quick boost to the Border Patrol.
    As we look toward hiring more Border Patrol agents, I am hopeful 
that many guardsmen and women, with expertise in the field, will look 
at this opportunity to become full-time Border Patrol agents with the 
Customs and Border Protection (CBP) agency. I would like to encourage 
the Senate Armed Services Committee to work with the CBP on how to best 
facilitate those guardsmen who may want to become Border Patrol agents.
    Mr. Chairman, I have no doubt that our National Guard will perform 
admirably in this mission. It is a mission that is important to our 
national security.
    However, I must clarify that this idea must be implemented in a way 
that does not make border presence a permanent mission of the National 
Guard. The committee must make certain that the Department of Defense 
(DOD) does not seize on this move and relegate the National Guard to a 
permanent border mission of this type. Border Patrol and security must 
remain a civilian law enforcement responsibility under the Department 
of Homeland Security.
    We know how critically important our National Guard is in fighting 
the global war on terror overseas. Without the National Guard, our 
missions in Iraq, Afghanistan, and around the world would be severely 
hamstrung. Our National Guardsmen are proud of their role they are 
playing in the war on terrorism and protecting our freedoms here at 
home and abroad.
    That being said, I am certain that our National Guard will welcome 
this new, short-term, mission on the borders until the Border Patrol, 
like TSA, is propped-up and meeting the needs and wills of United 
States citizens. However, please be certain that I will be watching 
with keen eyes how the DOD handles this mission and the National Guard.

    Chairman Warner. I'll address that issue of stealing some 
of your guardsmen for the Border Patrol later.
    Senator Craig. Good, thank you.
    Chairman Warner. Now, Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman. I want to also 
thank you for holding this hearing so swiftly.
    Chairman Warner. I thank you, all members, for attending. 
We've had good attendance today.
    Senator Dayton. I sympathize with your predicament, 
gentlemen. I recall that we had in Minnesota once a very 
innovative corporation, Control Data Corporation, with a very 
creative chairman, and one of the senior vice presidents was 
once asked, ``What is your job assignment?'' He said, ``The 
chairman decrees that the corporate elephant and the corporate 
mosquito will meet, and my job is to make it happen.'' I think 
that's what you are--and I appreciate the best face you're 
putting on what your Commander in Chief has declared will occur 
here. But, I will echo what I think all of my colleagues have 
said. I have the utmost respect in the National Guard, and 
confidence that they will carry out superbly any mission that 
they're assigned, as will other branches of the military, and, 
I know, the Border Patrol will also. But I think that some real 
questions need to be raised whether this is the most efficient 
and effective way of responding to the lack of border control, 
which I think we all agree, with the President, exists.
    I would just point out--and I'm sorry that he left, but 
Senator Ensign, since he amended what Senator Byrd had pointed 
out. I believe Senator Ensign, according to my information, is 
correct that the 2004 National Intelligence Reform Act, which 
he says was his amendment with the support of the 
administration, did authorize the additional hiring of 2,000 
additional border agents each year from fiscal year 2006 to 
fiscal year 2010. However, the President's 2006 budget included 
funding to appropriate to hire only 1,000 of those 2,000 
authorized agents for that fiscal year. Now it's incumbent on 
Congress to make sure that the 2007 budget does include the 
actual funding to fulfill that authorized complement of 2,000 
additional agents.
    I also note, if this information is correct, General Blum, 
if it's not please correct it, but according to one report, the 
National Guard's 400-strong force of full-time National Guard 
members who are now assisting the border security personnel in 
countering the drug trafficking in the four border States has 
existed, as some of you have alluded, since 1989, that 
operating partnership, but it is strung from about 1,000 
National Guardsmen in 1999 to the 400-strong force today, 
because of a 44-percent cut in its budget, according to the 
National Guard figures. One National Guard counterdrug official 
at the National Guard Bureau, who spoke on the condition of 
anonymity, according to this report, said, ``We could very 
quickly ramp up and double the effort if the funding was 
available.'' So, on the one hand, it seems we've been depleting 
those resources and that capability. Now we're in a position of 
trying to catch up with ourselves and--in a related area, not 
exactly counterdrug, but, as he said, you're asking--using the 
same techniques to find illegal drug traffickers or to find a 
person.
    I do have a question at the end of this, for Secretary 
McHale or to General Blum--you talk about building on this 
experience, this partnership between the National Guard and the 
Border Patrol, but isn't it correct that these 400 people are a 
full-time force there? Wouldn't that experience suggest, then, 
that it's going to be--would be far more effective and 
efficient to have--if we're going to need up to 6,000 
additional, that that be a full-time force for that period of 
time, rather than men and women who are rotating in and out 
every 2 to 3 weeks, involving 156,000 guardsmen over the next 2 
years because of that kind of rotational number? That just 
seems like a very inefficient way to accomplish what you want 
to do here.
    Mr. McHale. Senator, I'm going to ask General Blum to 
comment in just a moment, but it's my informed understanding 
that the vast majority of the counternarcotics missions 
executed since 1989 have been on a rotational basis identical, 
or nearly identical, to what we propose here.
    I think it may have been before you entered the room, it 
was pointed out that the kinds of barriers that you see 
depicted on the graphics to my right were (see previous 
slides), in fact, constructed not only by National Guardsmen, 
but utilizing their annual training in 2-week rotations. I'm 
not sure. I guess I'll really have to ask General Blum. But it 
had been my impression that the 400 soldiers--a little bit less 
than 400 right now--but the 400 soldiers involved currently 
along the southwest border in counterdrug operations were, for 
the most part, involved in annual training status.
    In any event, I can assure you that, over the last 20 
years, the vast majority of counternarcotics missions funded by 
Congress for the National Guard have involved the deployment of 
National Guardsmen in 2-week rotational status.
    Senator Dayton. General Blum.
    General Blum. Both of you gentlemen are correct, but you'd 
have to put, as you said, the mosquito and the elephant 
together to get the whole picture. There are full-time people. 
There will be full-time people in this mission. The duration 
force, those that are the planners, the liaisons, those that 
are the project managers, the leaders, the synchronizers and 
coordinators of the plan, will probably be on extended duration 
force so that we don't have to introduce Chief Aguilar and his 
subordinates to new leaders every 2 weeks. However, for over 25 
years, we have done these missions, not only on the southern 
border, but the northern border. Right after September 11, the 
National Guard was on the borders of this country. As soon as 
the Border Patrol was able to develop their capabilities, we 
came off. Right after September 11, we were in every airport in 
this Nation, until the Transportation Security Agency could 
stand up its capability; we're off. We did cargo inspection on 
the southwest border for years, until Customs could develop 
their own capability. Now, the National Guard is no longer 
doing that. It is fully my intent that we work ourselves out of 
a job on the southwest border as quickly as we can. Does that 
mean there won't be some National Guard in the same kind of 
arrangement that you're describing indefinitely? Yes. But not 
nearly at the scope that we're talking about here this morning.
    I might also add that in the United States Southern Command 
(SOUTHCOM) there are no United States forces apportioned to 
that combatant commander. Most of all of the work that has been 
done in South and Central America has been done by National 
Guard Forces, Army and Air, rotating down there for 2-week 
periods of time. Of course, we had a duration force down there 
to coordinate that.
    So, we're going to leverage that successful model, the 
successful 19-year model that we've seen on the southwest 
border. We're going to take that combination of a smaller full-
time cadre and leverage the capabilities of our young men and 
women citizen soldiers and airmen who already know that they 
are going to have to perform 15 days of training, and just 
target that training where it makes sense, where the right 
skill meets the right requirement. The location will happen to 
be the southwest border instead of Camp Swampy or some other 
place this year.
    Your comments are fair and accurate on counternarcotics. 
There's great competition for--and for prioritizing the money 
that we have, or the resources that we have in the DOD against 
its mission array. So, there were some hard calls that had to 
be made, and our counternarcotics contribution and budget has 
been degraded or made smaller in the last several years because 
of other pressures to do things that are absolutely essential 
for the global war on terror.
    So, there are hard calls to be made. If more resources are 
applied, obviously we can regenerate those capabilities.
    Mr. McHale. It's important to recognize that that figure of 
156,000, while we believed it to be accurate at the time that 
we first calculated it, has been coming down ever since. 
General Blum has reached the correct conclusion, that, with the 
rotation of forces in, you have to have a steady-state 
leadership team in place. So, there will be personnel from the 
National Guard on Active-Duty for periods of time beyond 2 or 3 
weeks to maintain that continuity of leadership. In addition, 
as I had mentioned earlier, we're going to try and accommodate 
the desire of some Governors to call up their own forces from 
within their States for an extended period of time, not in 
annual training status, and for beyond a 2-week period of time.
    So, as we keep the leadership team in place, as we try to 
work with the Governors for longer periods of duty drawn from 
the forces within the State, that affects the number of 
guardsmen who have to rotate through in the 2- and 3-week 
rotations. Frankly, we now anticipate that the number will be 
substantially less than 156,000.
    General Blum. The genius, if there is any in this plan, is 
that it is not a one-size-fits-all solution. What happens in 
California will be worked out between the Governor of 
California and the supported lead Federal agency, the DHS or 
the Border Patrol or Customs. Accommodations will be made for 
both to make sure mission surety, but we're not going to 
prescribe how it is done precisely.
    Chairman Warner. Thank you.
    General Blum. What they do, we will.
    Senator Dayton. Thank you.
    Thank you, Mr. Chairman. My time is expired.
    Chairman Warner. Thank you very much.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. Thank you, 
gentlemen.
    General Blum, I think the two precedents that you're 
operating on are training exercises, either along the border or 
in other areas, like Central America, and the counterdrug 
operations. The counterdrug operations are authorized by 
statute. What statute authorizes the surveillance activities, 
the operating sensors, providing airlift, those things that 
might be training, but are more like operations?
    General Blum. I would--probably Secretary McHale is best to 
answer this, but it's my understanding that we're going to use 
title 32, U.S.C., section (f), which says, ``Other Duties,'' 
which means that the Secretary of Defense can prescribe the 
other duties of the National Guard in a Federal-funded status.
    Senator Reed. Is that your opinion?
    Mr. McHale. I promised the General Counsel of the DOD that 
I would not practice law while serving in my current position, 
but urging much further review by appropriate attorneys here on 
Capitol Hill, in consultation with DOD, the two sections that I 
am told we are looking at are title 32, section 502(a), and 
title 32, section 502(f), which is the one that General Blum 
just referenced. Section 502(a) covers annual training. The 
attorneys in DOD have concluded that that authority in 502(a) 
for training allows us to execute missions in a training 
status, so long as those missions are directly related to the 
title 10 responsibilities that those forces would be assigned, 
were they brought into Federal service. This is not the first 
time that we've done that.
    Senator Reed. No, that's not controversial.
    Mr. McHale. Senator, you're right. There are times when the 
use of a training status comes very close, or in fact, becomes 
an operational status. In certain other areas of title 32, we 
have amended title 32 to directly reflect the reality of the 
employment of training in an operational status. Section 502(f) 
deals with periods of duty exceeding the annual training, where 
it is other duties, as, I think, prescribed by the Secretary. 
That is likely the section that we would use to accommodate the 
request of a Governor who might want to bring to Active-Duty, 
in title 32 status, forces from within the State for periods of 
time exceeding annual training--4 weeks, 6 weeks, 8 weeks. 
Section 502(f) would likely be the authority that would allow 
that to take place.
    Senator Reed. I take it, then, you're not contemplating 
requesting a specific legislative authority to conduct any of 
these activities.
    Mr. McHale. The advice that has been given to our office at 
this point, from the General Counsel's Office, is that 
additional authority is not required, and that sections 502(a) 
and 502(f) meet the requirement.
    Senator Reed. I wonder why you have specific authority for 
the drug interdiction program, since it's very similar to what 
you're practically doing on the ground now. Instead of 
interdicting drugs, you are interdicting illegal entrants.
    Mr. McHale. I'm hesitant to address that, in terms of how 
close some of the activity in the past has been between 
National Guard Forces and Customs and Border Protection in 
certain kinds of counterdrug missions that come up to the line 
of law enforcement activity. Also, I think the separate 
authority reflects the history of the central transfer account, 
where Congress has determined that those missions should be 
funded directly and exclusively within a central transfer 
account, subject to very tight limitations, in terms of how 
that funding can be used, and can only be used for 
counternarcotics.
    Senator Reed. Let me slightly change the focus, because I 
think it----
    Chairman Warner. Senator, if I could interrupt. I think 
those are important lines of questions, and I would ask our 
witness if you would consult with counsel, let him review these 
important questions, and such others that draw on it, and 
provide this committee with a legal opinion.
    Mr. McHale. Yes, sir. We will do that.
    [The information referred to follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Warner. Thank you, Senator.
    Senator Reed. Thank you, Mr. Chairman.
    General Blum, this potentially is a very convoluted command 
structure. You have a National Guard supporting, directly, the 
Border Patrol and Customs enforcement, yet the National Guard 
is operationally under the control of a Governor. Does that 
mean the Governor will somehow collaborate--direct border 
patrolmen--how does it work, in practice?
    General Blum. No, sir, it's not convoluted at all. Let me 
try to describe it, because maybe we didn't do a good job of 
that.
    The Commander in Chief in California would be the Governor 
of California, and the same for each State, moving east to 
Texas. They have an Adjutant General. That is the senior 
military leader of the National Guard. They have a Joint Force 
Headquarters of Army and Air National Guard and others. They 
have a Joint Task Force (JTF) commander, that is pre-schooled, 
pre-trained, and pre-designated, that will be the military 
commander of all of the National Guard Forces that are 
supporting the law enforcement agency within that State. They 
have no authority outside of that State boundary, political 
boundary. So, the areas of operation will be drawn around the 
political boundaries of the State. Each JTF will coordinate and 
command and control the military forces that are in support of 
the DHS mission.
    The National Guard Bureau will coordinate with the Joint 
Staff to make sure that all of those four State plans are 
nested, coordinated, and do not contradict one another. If 
there is a contradiction, I have liaison officers going to each 
of the State Joint Force Headquarters to ensure that there is 
no seam. We don't want seams in his border.
    Senator Reed. Will there be a formal plan presented by the 
Governor, through his military commanders in each State, to 
you?
    General Blum. Yes, sir, that's correct.
    Senator Reed. But the Governor retains complete flexibility 
in the final outline of that plan.
    General Blum. No, he does not have complete flexibility. He 
has--the plan will be approved with certain parameters, left 
and right limits, certain rules of engagement, and certain 
rules of use of force, certain mission sets that are authorized 
by the Secretary of Defense, certain mission sets that are 
prohibited by the Secretary of Defense, if they're going to use 
Federal funding to do those missions. The Governor will also 
have part of his National Guard that is not in Federal-funded 
status that he or she can call under State Active-Duty to do--
to enforce the laws of that State if he or she so chooses. But 
that will be paid for out of the resources of the State 
coffers, not the Federal Government.
    Senator Reed. So, essentially, even though the Governor is 
formally in charge of these troops when they're not in a direct 
Federal capacity; if he or she is to be reimbursed for their 
use, they would have to agree to at least the outlines of the 
plan that you propose and you approve.
    General Blum. Yes, sir, except that it's even better than 
that. They're getting the money upfront. But to accept that 
money, they have to accept the conditions of the rules of 
engagement, rules of use of force, and the approved mission.
    Senator Reed. A final question. Will we see those plans 
before they're finalized?
    General Blum. Sir, if you desire to see them, absolutely.
    Chairman Warner. That's correct, they'll be provided to 
this committee.
    Senator Reed. Thank you very much, Mr. Chairman.
    Chairman Warner. Thank you.
    I have a few questions, and then this hearing will 
conclude, gentlemen. I know each of you have committed to the 
committee a specified time. Thank you for your attendance.
    I want you to be able to get back to work on those plans 
that you're finishing up tonight.
    General Blum. Thank you, sir.
    Chairman Warner. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman, and thank 
you for holding this timely hearing.
    Secretary Chertoff has said that, ``Without a guest-worker 
program, it is going to be extraordinarily difficult for Border 
Patrol agents''--and I'm quoting him--``to stem the tide that 
is driven by a huge economic engine of employers looking for 
people to do work that won't be done by Americans.''
    While providing more troops for the southwestern border, 
the President's plan does not in any way address the underlying 
issues spelled out by Secretary Chertoff. In fact, T.J. Bonner, 
President of the National Border Patrol Council, the agent's 
union, has called the administration's plan ``a smokescreen, a 
diversion.''
    Given that neither Secretary Chertoff nor the President of 
the National Border Patrol Council seem to believe that this 
plan will not result in any long-term solutions to the 
immigration challenges facing this Nation, my question to you 
is, how do you justify the costs of this program?
    Mr. McHale. Sir, of course, I am the DOD, not the DHS. It's 
our committed belief that the temporary use of National Guard 
Forces over the next 1- or 2-year period of time will allow for 
a substantial and permanent improvement within the law 
enforcement and administrative capabilities of Customs and 
Border Protection and elsewhere throughout the DHS. Our job is 
to assist DHS in moving to a higher level of capability. 
Although I can't speak for DHS, and perhaps the chief would 
want to make a comment, I've been in Secretary Chertoff's 
presence frequently in the last couple of days, on these 
issues, and I have heard him speak with knowledge, conviction, 
and passion about the opportunity that the use of National 
Guard Forces will now provide, augmented by increased funding 
to train and equip, and then deploy, a substantially larger 
number of Border Patrol agents, Customs and Border Protection 
agents, as a direct result of the DOD assistance.
    So, all I can really address is the fact that we're 
offering a helping hand that I think will make a big difference 
in the next 2 years. Utilizing that period of time, it is very 
likely that we'll have a DHS that is then able to take the 
baton and run forward at a more effective rate of speed to 
secure our borders and ensure a comprehensive strategy for 
immigration reform.
    Chief, I don't know if you have comments on that.
    Mr. Aguilar. The comments that I would make is that in the 
President's speech he talked about immigration reform, and he 
also talked--and I believe we need a comprehensive approach to 
the issue of illegal immigration into this country, of which 
this initiative supports one very important component of that 
comprehensive approach, and that is nothing less than security 
of our borders, security of our borders first, while, at the 
same time, stemming that illegal flow of illegal incursions, 
which includes many illegal aliens coming into this country, 
and many tons of narcotics also coming into this country.
    So, I think I am--like the Secretary, I speak to my 
responsibility. My responsibility is the immediate border. 
There are two other components that the President addressed. 
One of them, I can speak to, on the periphery, is interior 
enforcement, because our sister agency, Immigration and Customs 
Enforcement (ICE), will be addressing that. Then, of course, 
any kind of potential regulatory issues having to do with 
regulating the labor requirements of this country would also 
help mitigate that illegal incursion flow between the ports of 
entry.
    Senator Akaka. Thank you.
    General Blum, the President's plan to send 6,000 National 
Guard troops to the border occurs just as we're getting ready 
to face another hurricane season. I'm concerned that our 
National Guard is already stretched thin by operations in Iraq 
and Iran. Can you comment on whether sending our National 
Guardsmen to the borders will, or will not, interfere with the 
ability for troops to rapidly respond to natural disaster or 
unanticipated national crisis?
    General Blum. Senator Akaka, your concerns are valid. But 
we are going to be very careful that the units, the personnel, 
the capabilities, and the equipment that are sent in support of 
DHS on the southwest border in no way reduce our effectiveness 
to respond to what we know is inevitably going to come our way 
in the next few months. The hurricanes are going to come. 
Where? I don't know. But I know they're coming, and we are 
prepared this year with more troops, more equipment, better 
plans, and better-rehearsed plans than we were last year. This 
mission will in no way undermine or lessen our ability to do 
that, and it will also not impact negatively our ability to 
generate Army and Air Force forces overseas, as our Nation 
requires.
    Senator Akaka. Thank you. General Blum, I'd like to correct 
my question. When I said it is ``stretched thin by operations 
in Iraq,'' I should have said, ``and Afghanistan.''
    General Blum. Sir, I know what you meant to say.
    Senator Akaka. Thank you.
    General Blum, the National Guard is facing severe equipment 
shortfalls that hamper the Guard's ability to operate at full 
capacity. In addition, at this time, the National Guard does 
not have the funds available to do the necessary resetting of 
its equipment. I'm concerned about that and about the cost that 
would--sending National Guard troops and equipment to the 
border would--and wonder whether it would hinder the ability of 
the National Guard to replace and refurbish the equipment it 
needs to respond to State emergencies.
    What will be done to ensure the costs of this program do 
not further exacerbate the National Guard's equipment 
shortages?
    General Blum. Senator Akaka, again, very valid concern. I'm 
glad you are concerned about it. This body, this Congress, 
graciously provided the National Guard $800 million after 
Hurricane Katrina. We requested $1.3 billion. We received $800 
million. Because of that, those resources that Congress 
provided, we now have much better capability in interoperable 
communications and some transportation assets that we were 
woefully short here at home last year for Hurricane Katrina. 
So, that situation has improved.
    I think the use of the National Guard overseas and at home 
is right. That's what we exist for. But we need to be resourced 
to, in fact, deliver these capabilities, because we are not 
going to be held as a strategic reserve, an unlikely use, I 
think, is very predictable that the use of the National Guard 
will actually increase in future years, because we deliver 
great capabilities at a bargain on the taxpayer's dollar. So, 
the attention and assistance from Congress to equip the 
National Guard as an operational force, not a strategic 
reserve, is absolutely the right thing to do for this Nation. 
We're moving in that direction as we speak. We're not going as 
fast as I'd like, but the direction is correct. The Army has 
$21 billion committed to re-equipping the Army National Guard. 
That will make a huge difference if that money sticks across 
the Future Years Defense Program and we really get all of it, 
as it's programmed. If we don't, then our ability to do what 
you're suggesting will be diminished, sir.
    Chairman Warner. Thank you very much, Senator.
    Senator Akaka. Thank you very much.
    Chairman Warner. Gentlemen, I want to thank you for an 
excellent hearing, promptly coming forward and advising 
Congress. I know each of you have to return and continue this 
work this evening.
    Senators Ensign, Craig, and I were looking at a concept 
whereby people on Active service in the military, who have 
received a lot of training, whether it's National Guard, 
Reserve, or regular, who might be interested in this, we'll 
look at it. I think it's something that has to be studied 
pretty carefully. We will invite you, General Blum, and, 
indeed, General Conway and the DOD, to look at it, in 
conjunction with the DHS, because this is a very urgent need, 
but, at the same time, we have to take note, General Blum, that 
you fell short of your recruiting goals last month. Am I 
correct on that?
    General Blum. Sir, we set our goals very high. Yes, you're 
correct, we fell short. But I might want to make sure, for the 
record, that everyone knows that we have had the best 7 
consecutive recruiting months in the last 13 years. We are 
showing a net gain of over 1,000 every month, recruiting 1,000 
more people than we're losing. We're retaining our soldiers. 
We're re-enlisting our soldiers, still, at an unprecedented 
rate. So, I am absolutely confident that you will not be able 
to say that to me again in the future months, sir.
    Chairman Warner. That's a magnificent measure of a great 
patriotism that permeates this great land in which we're 
privileged to live.
    General Blum. Yes, sir, it is.
    Chairman Warner. Thank you all. The hearing is now 
adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John Cornyn
                efficiency of use of the national guard
    1. Senator Cornyn. Secretary McHale, according to recent 
statements, the deployment of 6,000 members of the National Guard to 
the border will free up about 500 Border Patrol agents who could be 
redeployed from administrative to front-line enforcement positions. 
This is a 12-to-1 ratio of guardsmen to Border Patrol agents who could 
be moved to more effective positions. Does this 12-to-1 ratio indicate 
that use of the National Guard is efficient as a means to increase 
enforcement resources for the Border Patrol?
    Mr. McHale. The National Guard is augmenting and enhancing the U.S. 
Border Patrol's ability to carry out its mission. The missions assigned 
to the National Guard soldiers and airmen are directly related to their 
military skills (e.g., medics, aviation, infantry, public affairs, 
administrative and personnel, and maintenance personnel), normally 
associated with their warfighting and disaster-response missions. The 
National Guard is not replacing or performing the functions of the U.S. 
Border Patrol or the Customs Enforcement Agency. In fact, the National 
Guard will not be engaged in law enforcement duties. The National Guard 
deployment along the southwest border in support of the Department of 
Homeland Security (DHS) is an important. but temporary bridge to 
improve civilian security capabilities. This is not a new mission for 
the National Guard; rather, we are building on a time-proven model that 
has been in use on the southwest border now for almost two decades. 
Since 1989, the National Guard has been conducting or performing 
counternarcotics support to civilian law enforcement agencies such as 
the Drug Enforcement Agency, the Bureau of Immigration and Customs 
Enforcement (ICE), and the Bureau of Customs and Border Protection 
(CBP). The National Guard personnel are performing this mission on a 
much larger scale to provide the U.S. Border Patrol expanded 
capabilities time while it is recruiting and training agents and 
developing new capabilities of their own.

    2. Senator Cornyn. Secretary McHale, is there a more cost-effective 
way to quickly increase the enforcement resources of the Border Patrol?
    Mr. McHale. In the Department's view, providing the National Guard 
with relevant training opportunities, while also enhancing the security 
of our Nation's southwest border, is very cost-effective.

    3. Senator Cornyn. Secretary McHale, could other Federal and State 
law enforcement resources, such as the Federal Bureau of Investigation, 
the U.S. Marshals Service, and State Police, or recent retirees of 
those law enforcement organizations, be used to better rapidly increase 
the enforcement capability of the Border Patrol on a temporary basis?
    Mr. McHale. National Guard personnel participating in Operation 
Jump Start are not performing law enforcement duties. Nor are National 
Guard personnel replacing or performing the functions of the U.S. 
Border Patrol or ICE. The National Guard is augmenting and enhancing 
the Border Patrol's ability to carry out its mission. The missions 
assigned to the National Guard soldiers and airmen are related to their 
military skills (e.g., medics, aviation, infantry, public affairs, 
admin and personnel, and maintenance personnel), normally associated 
with their warfighting and disaster-response missions. As to the 
ability of other Federal and State law enforcement resources to 
increase rapidly the law enforcement capability of the border patrol on 
a temporary basis, this question would best be answered by the DHS.

                      plans for logistics support
    4. Senator Cornyn. General Conway and General Blum, it has often 
been noted in the study of the history of planning military operations 
that ``Amateurs talk about tactics, but Professionals study 
logistics.'' While the National Guard will be acting in a supporting 
role for the Bureau of Customs and Border Protection, has the 
Department of Defense (DOD) considered a plan for the housing, feeding, 
and other logistical support for the 6,000 National Guardsmen to be 
deployed in support of this mission?
    General Conway. Logistics are always in the forefront of any 
military commander's decision process when committing troops to the 
field, whether it is the lieutenant in charge of his platoon or the 
general in charge of the Army. The State Adjutants General, with the 
assistance of Lieutenant General Blum, have the responsibility for 
ensuring members of the National Guard deploy with the right amount of 
logistical support. In addition, it should be noted annual training 
usually entails field conditions, meaning billeting in less than 
desirable accommodations. The southwest border will provide an 
outstanding yet demanding training environment.
    General Blum. Yes. The specifics of plan are being executed by the 
Joint Force Headquarters (JFHQ) of each of the southwest border States 
(California, New Mexico, Arizona, and Texas). Their Joint Task Forces 
are responsible for the planning and provisioning of the housing and 
feeding of the troops who are responding to this mission in their 
respective States. Each of the supported States has assumed 
responsibility for these requirements and National Guard Bureau is 
merely a coordinator for assistance to these States.

    5. Senator Cornyn. General Conway and General Blum, who will be 
responsible for the coordination of logistical support?
    General Conway. The State Adjutants General, with the assistance of 
the National Guard Bureau, are responsible for the coordination of 
logistical support.
    General Blum. The JFHQ of each of the States (California, New 
Mexico, Arizona, and Texas), through their Joint Task Forces with 
Liaison Officers from Bureau of Customs and Border Protection and 
National Guard Bureau, will coordinate all logistic requirements, such 
as provisioning of supplies and lodging.

    6. Senator Cornyn. General Conway and General Blum, can you 
describe the plan in terms of the types of facilities and 
infrastructure, locations, and estimate of the costs to provide 
logistical support for these personnel?
    General Conway. I defer to Lieutenant General Blum in answering 
this question.
    General Blum. The JFHQ are still working on their assessments and 
identifying requirements. Once those steps are completed, we will have 
an accurate picture of the types of facilities and infrastructures, 
locations, and cost estimates to provide logistical support for our 
National Guard personnel.

    7. Senator Cornyn. General Conway and General Blum, has a timeline 
been established for the construction of these facilities?
    General Conway. I defer this question to Lieutenant General Blum.
    General Blum. A specific timeline cannot be established until the 
full mission set, location, and numbers of personnel are identified. We 
are still working on those requirements and anticipate having a better 
timeline in the near future. However, we expect these facilities to be 
up and running in a timely manner to meet requirements.

    8. Senator Cornyn. General Conway and General Blum, will the 
National Guard be required to bring vehicles and other equipment from 
their home units to accomplish this mission?
    General Conway. I defer this question to Lieutenant General Blum.
    General Blum. Yes, in some cases. The vehicles and equipment 
required will be situational dependent. Use of vehicles and other 
equipment are not to negatively impact the readiness of units in those 
States to perform their Federal mission. The Adjutant General for each 
of the participating States will make a determination as to what 
personnel and equipment it can provide to this mission without 
negatively affecting their own ability to meet planned and anticipated 
State and Federal missions.

               use of the guard in annual training status
    9. Senator Cornyn. General Blum, I understand it is proposed that 
the National Guard units will provide this support as annual training 
under section 502 of title 32, United States Code. How does the 
National Guard Bureau expect that members will get the training 
required by law and regulation while they are supporting Customs and 
Border Protection?
    General Blum. Members of the Army and Air National Guard are 
required to conduct 2 weeks of annual training each year; therefore 
we're simply changing the location of this scheduled training in many 
cases. So, we'll be looking to move the appropriate numbers of soldiers 
and airmen to the border States--New Mexico, California, Texas, and 
Arizona--to conduct their annual training. While the environment may be 
different, the training will be the same, and you can rest assured that 
your National Guard will receive all the appropriate/required training 
during this mission. Your National Guard is well-suited for this 
mission on the border

    10. Senator Cornyn. General Blum, does the National Guard Bureau 
regard this as appropriate training duty?
    General Blum. This training is very appropriate. Again, the 
soldiers and airmen are not changing their training regiment only the 
environment. They will be able to hone the skills that they have been 
trained to do within the military. I might add that this is the very 
reason your National Guard is the best solution for conducting this 
mission. First of all, we have the `hometown' connection, and second, 
this mission will simply allow our soldiers and airmen to receive real-
world training. Real-world training is always beneficial to the troops 
because it allows them to hone their skills and it also gives them a 
sense of pride and purpose in knowing they are doing something to help 
the country.

    11. Senator Cornyn. General Blum, how many National Guard troops 
would be involved at any one time?
    General Blum. The President has authorized your National Guard to 
provide 6,000 personnel in the first year of the operation and then 
tapering off to 3,000 in the second year of the operation.

    12. Senator Cornyn. General Blum, how many National Guard troops 
would be required over the course of rotations to support the mission?
    General Blum. The President has authorized 6,000 personnel for the 
first year of the operation. We'll support this mission request by 
taking advantage of the 2-week annual training rotation for the most 
part, with a percentage of the total force package there on a longer-
term rotation. The intent of the long-term rotation is to ensure 
continuity for the operation as well as a smooth rotation for the 
troops that are rotating every 2 weeks. We want to be sure that our 
contacts within the Bureau of Customs and Border Protection are seeing 
the same faces, in regards to leadership, to avoid issues. We're very 
confident this will ensure the overall success of the mission.

    13. Senator Cornyn. General Blum, if Guard members will only be 
assigned for short rotations, how will this impact the cost of 
providing the support?
    General Blum. National Guard personnel will not only be in short 
rotations; as previously stated, we will have a contingent of long-term 
troops in each of the four border States--New Mexico, Arizona, Texas, 
and California--to ensure that we are providing the support that the 
President and Bureau of Customs and Border Protection envisioned when 
the call was made to the National Guard.

    14. Senator Cornyn. General Blum, how will the National Guard be 
able to come up to speed fast enough to make a lasting contribution on 
long-term projects with such short rotations?
    General Blum. The National Guard will be able to make a lasting 
contribution to long-term projects through the use of short-term unit 
rotations because the units will be performing tasks for which they 
have long trained as units or individuals. We have long experience in 
doing this successfully. Short rotations of National Guard engineer 
units have very successfully contributed to the construction of fencing 
along the southwest border for years. This is possible because the 
units and the people rotating in for short periods arrive with a set of 
skills which can be put to work effectively right away. Additionally, 
their contribution will be assured by the oversight and leadership of 
our long-term headquarters element that will be in place in each State.

   restrictions on utilization of the guard in annual training status
    15. Senator Cornyn. Secretary McHale, if National Guard troops are 
deployed along the border to accomplish their annual training, will 
they be able to lawfully conduct surveillance and intelligence analysis 
that results in actionable intelligence that leads to arrests and 
detention of individuals?
    Mr. McHale. Yes. There is no Federal prohibition against the 
National Guard, acting under the command and control of a State 
Governor, providing this type of information. The intelligence plan 
that supports this mission was reviewed carefully to ensure that 
National Guard personnel are in strict compliance with all applicable 
laws and procedures. Of note, National Guard personnel participating in 
Operation Jump Start are not conducting domestic intelligence 
collection activities.

    16. Senator Cornyn. Secretary McHale, are there restrictions on the 
surveillance and intelligence analysis that National Guard personnel 
will be able to perform?
    Mr. McHale. Yes. The intelligence plan that supports this mission 
was reviewed carefully to ensure that National Guard personnel are in 
strict compliance with all applicable laws and procedures. Of note, 
National Guard personnel participating in Operation Jump Start are not 
conducting domestic intelligence collection activities.
    National Guard personnel collection, retention, and dissemination 
of information on U.S. persons (e.g., a United States citizen, an alien 
known to be a permanent resident alien, an unincorporated association 
substantially composed of United States citizens or permanent resident 
aliens, at a corporation incorporated in the United States, except for 
a corporation directed and controlled by a foreign government or 
governments) is limited to specific exceptions related to foreign 
intelligence or counterintelligence; international terrorist 
activities; international narcotic activities; the protection of DOD 
employees, property, facilities, and information systems; or violations 
of Federal, State, or local law.

    17. Senator Cornyn. Secretary McHale, will National Guard personnel 
be gathering intelligence on U.S. citizens who cross the border, or who 
provide support to illegal aliens?
    Mr. McHale. National Guard personnel are not gathering intelligence 
on U.S. persons. However, current law, executive orders, and 
regulations do permit collection, retention, and dissemination of 
incidentally obtained information that may indicate involvement in 
activities that may violate Federal, State, local, or foreign laws. 
National Guard personnel participating in Operation Jump Start provide 
to U.S. Border Patrol agents any incidentally obtained information on 
suspected violations of the law.

          preparation of national guard units for the mission
    18. Senator Cornyn. Secretary McHale and General Blum, will the 
National Guard Forces be armed?
    Mr. McHale. As National Guard personnel operating in the border 
States are under State control, the decision to arm them is made by the 
Governors of the border States. In the Department's view, the 
Governors' decisions have been largely dependent on the nature and 
location of the mission that National Guard personnel are performing. 
For instance, the majority of missions that are performed by National 
Guard personnel do not place them in any physical danger or jeopardy. 
As such, the majority of National Guard personnel have not been armed. 
However, to the best of our knowledge, the Governors have ensured that 
National Guard personnel operating in dangerous areas along the 
southwest border are properly armed.
    General Blum. Some will be armed. Some will not. Their arming 
status will be determined by their mission. All Operation Jump Start 
National Guard Forces are subject to Rules for Use of Force (RUF) which 
are common to all four southwest border States. As drafted and adopted, 
the RUF complies with the laws of the four States, and it has been 
agreed to by their Governors and the DOD. Prior to its adoption the RUF 
was reviewed by the White House, DHS, and Department of Justice. The 
RUF permits National Guard Forces to be armed for self-defense as well 
as the defense of others. The decision to arm National Guard Forces is 
in the hands of the Adjutant General of each border State or his 
designee.

    19. Senator Cornyn. Secretary McHale and General Blum, 
understanding that National Guard troops would not be involved in 
direct law enforcement duties, what are the rules for use of force for 
the troops deployed in support of this initiative?
    Mr. McHale. There are uniform rules for the use of force (attached) 
across the southwest border in support of this operation. All National 
Guard personnel are informed fully in advance on the rules for the use 
of force, including their right of self-defense. These rules for the 
use of force have been incorporated into a memorandum of understanding 
among the State Governors under whose command and control these forces 
will be serving.
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
      
    General Blum. The RUF permits National Guard Forces to defend 
themselves and others in a manner that is acceptable under the law of 
each southwest border State. You are respectfully referred to the RUF 
below. A laminated copy of the RUF will be distributed to each National 
Guard soldier and airman performing law enforcement support duly in 
support of Operation Jump Start.
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    20. Senator Cornyn. Secretary McHale and General Blum, what happens 
when National Guard troops witness what appears to be unlawful activity 
by illegal aliens?
    Mr. McHale. What happens will depend on the circumstances of the 
unlawful activity witnessed by National Guard personnel.
    National Guard personnel who witness illegal activity that directly 
and immediately threatens the life of a person (or persons) are 
permitted by State law to intercede to protect the life of that person 
(or persons).
    National Guard personnel conducting activities to enhance the 
security of the southwestern border report, as part of their routine 
reporting procedures, any suspected illegal activities taking place on 
the territory of the United Mexican States that they detect.
    National Guard personnel conducting activities to enhance the 
security of the southwestern border report immediately any information 
regarding suspected illegal activities taking place on the territory of 
the United States to U.S. Border Patrol agents operating in their 
sector.
    General Blum. The National Guard soldier or airman is expected to 
report the activity to law enforcement personnel.

    21. Senator Cornyn. Secretary McHale and General Blum, what 
training will servicemembers, as well as their chain of command, 
receive prior to employment regarding rules for use of force?
    Mr. McHale. National Guard personnel, who are scheduled to deploy 
to conduct activities to enhance the security of the southwestern 
border, receive careful training in the uniform rules for the use of 
force prior to their deployment. In addition, each member is provided 
with a laminated card containing the rules for the use of force for 
their ready reference when they are in the area of operations.
    General Blum. All National Guard Forces supporting Operation Jump 
Start will be issued a laminated copy of the RUF upon entering upon 
duty. Further, all National Guard Forces will be trained on the RUF, 
and will be required to keep a copy of the RUF on his or her person at 
all times while on duty.

    22. Senator Cornyn. Secretary McHale and General Blum, are State 
rules for use of force across all southwestern border States the same?
    Mr. McHale. Yes. The Governors of the southwestern border States 
agreed to uniform rules for the use of force that apply to all National 
Guard Forces conducting border support duties in those States.
    General Blum. Yes. The Regional RUF is common to all four southwest 
border States.

  consistency with national guard authority for counterdrug operations
    23. Senator Cornyn. Secretary McHale, under section 112 of title 
32, the National Guard is authorized to provide support to States under 
an approved State drug interdiction and counterdrug activities plan. 
This includes, for example, authority for the National Guard to assist 
in the transportation of aliens who have violated Federal or State law 
regarding the possession, use, or distribution of a controlled 
substance. How is the new plan for use of the National Guard consistent 
with existing statutory authority to assist the States for counterdrug 
operations, and do the requirements and limitations of the existing 
authority for National Guard support for counterdrug operations 
indicate a need for specific statutory authority for this mission?
    Mr. McHale. Although National Guard missions conducted in support 
of the security of the southwest U.S. border are substantially similar 
to the annual training missions executed as part of the counterdrug 
program along the southwest border since 1989, these missions are 
conducted not under the authority of section 112 of title 32, U.S.C., 
but under the authorities of section 502(a) and section 502(f) of title 
32, U.S.C. The former authorizes training activities, and the latter 
authorizes a member of the National Guard to be ordered, with or 
without his or her consent, to perform training or other duties.

           support to civilian law enforcement under title 10
    24. Senator Cornyn. Secretary McHale, chapter 18 of title 10 
provides authority to use the Armed Forces to support civilian law 
enforcement. Since it is not expected that members of the National 
Guard will engage in searches, seizures, arrests, or other activity 
that Active-Duty Forces are prohibited from engaging in under title 10, 
why not use the National Guard in title 10 status?
    Mr. McHale. We are building on a long history of very successful 
military activities that have worked. Since 1989, military activities 
conducted at the southwest border in support of the counterdrug mission 
have largely been carried out by National Guard personnel under the 
command and control of State Governors. Additionally, National Guard 
personnel have provided military support to civil authorities for many 
years in the normal course of military training or in activities that 
have resulted in a benefit to a military unit or to military personnel 
providing such support that is substantially equivalent to that which 
would otherwise be obtained from military training (e.g., medics, 
aviation, infantry, public affairs, admin and personnel, and 
maintenance personnel). Nation Guard personnel require training to 
prepare for the Federal mission, and this operation will not only 
provide them realistic training opportunities but will also serve to 
improve our Nation's land border security.

  involvement of the governors and the adjutants general of the states
    25. Senator Cornyn. Secretary McHale and General Blum, were the 
Governors of the southwestern border States and the Adjutants General 
of those States involved in the discussion and planning of this 
proposal?
    Mr. McHale. The Governors and the Adjutants General of the 
supported southwestern border States have been closely involved in the 
planning of this operation. The deployment and operation of their 
National Guard personnel, as well as those of supporting States, to 
enhance the security of our border has been conducted with their full 
consent and cooperation.
    General Blum. Yes, we have included the Adjutants General and 
Governor of each of the supported States as well as the States being 
asked to supply troops in all planning and coordination.

    26. Senator Cornyn. Secretary McHale and General Blum, have the 
Governors and the Adjutants General of the States that may be asked to 
contribute National Guard troops been consulted?
    Mr. McHale. The Governors and the Adjutants General of the 
supporting States--those States that may be asked to provide National 
Guard personnel to southwestern border States--have been consulted, and 
the deployment and operations of their National Guard personnel in 
support of the security of our border has been conducted with their 
full consent and cooperation.
    General Blum. Yes, we have included the Adjutants General and 
Governor of each of the supported States as well as the States being 
asked to supply troops in all planning and coordination.

                     role of u.s. northern command
    27. Senator Cornyn. Secretary McHale and General Conway, U.S. 
Northern Command (NORTHCOM) was established in 2002 with the mission of 
planning, organizing, and executing homeland defense and civil support 
missions within the continental United States, Alaska, and our 
territorial waters. NORTHCOM is also responsible for the DOD's security 
cooperation efforts with Canada and Mexico. That said, what will 
NORTHCOM's role be in this operation?
    Mr. McHale. U.S. NORTHCOM's role in border security has been to 
provide support to civilian authorities, principally the DHS, when 
directed by the President or the Secretary of Defense. For the current 
effort, military support is provided by National Guard Forces operating 
under the command and control of the State Governors. The National 
Guard emphasis is not new to efforts to support CBP.
    Currently, there are no plans to deploy additional Active-Duty 
personnel to the border. However, as we gain more information related 
to the mission, there may be some capabilities found in Active-Duty 
units that can be employed to gain and maintain increased security 
along the border. If Active-Duty personnel are used, their employment 
would be on a very limited and reimbursable basis to provide specific 
skills and capabilities. These personnel would operate under the 
command and control authority of the Commander, U.S. NORTHCOM.
    Additionally, Joint Task Force North, a subordinate command of U.S. 
NORTHCOM, has, for the last 2 years, supported CBP on border security 
operations in numerous northern and southern U.S. Border Patrol 
sectors. Since it is likely that Joint Task Force North will continue 
to conduct such operations, U.S. NORTHCOM will liaise closely with the 
National Guard Bureau to ensure that Federal and State military forces 
involved in border security operations have a common understanding of 
the locations, tasks, and purposes of all military forces providing 
military support in the vicinity of the borders.
    General Conway. NORTHCOM will continue to provide support to DOJ 
and DHS in regard to counternarcotic operations. These missions will, 
as they have in the past, be accomplished with title 10 members and are 
completely separate from the National Guard support to Operation Jump 
Start. These missions may be complementary but are separate from 
Operation Jump Start.
    While there are no plans currently to do so, if Active-Duty 
personnel were required, due to their unique capabilities, to support 
Operation Jump Start, they would deploy and operate under the command 
and control of the Commander, NORTHCOM. NORTHCOM will synchronize 
missions with the State National Guard Joint Task Force Headquarters to 
ensure operations are synchronized.

    28. Senator Cornyn. Secretary McHale and General Conway, will a 
joint task force be established to coordinate the efforts of the 
National Guard in each State, and if so, who will command the joint 
task force, and how will that officer coordinate with the Governors, 
the Adjutants General, and Bureau of Customs and Border Protection?
    Mr. McHale. Each of the four southwest border States (California, 
Arizona, New Mexico, and Texas) have established a joint task force 
that is responsible, under the authority of the Governor and the 
Adjutant General of that State, for operational control of all National 
Guard personnel executing missions in support of border security within 
that State.
    General Conway. I defer this question to Lieutenant General Blum.

    department of homeland security identification of missions sets
    29. Senator Cornyn. Chief Aguilar, it is my understanding that the 
DHS intended to submit a set of missions to the DOD regarding the type 
of support the Bureau of Customs and Border Protection will require. 
Has that list of missions been finalized, and, if so, has it been 
relayed to the DOD? If not, when is this expected to occur?
    Chief Aguilar. Since the inception of Operation Jump Start, U.S. 
Customs and Border Protection, Office of Border Patrol, has worked 
hand-in-hand with the National Guard Bureau to identify the personnel 
requirements, the mission sets, and critical skills needed to reach the 
ultimate goal of deploying 6,000 National Guard troops to the border. 
Under the Operations Plans, developed by the Border Patrol, all of the 
missions place the National Guard in supporting roles to augment Border 
Patrol operations.
    Mission sets were established around like job skills that would 
augment Border Patrol operations. One such mission set was command, 
control, communications, computers, and intelligence (C\4\I), which 
included the following job skills: joint task force headquarters; 
intelligence support; communications support; electronics maintenance; 
mapping and imagery support; and data and voice support.
    In conjunction with the Nation's Governors, the National Guard has 
deployed 6,000 soldiers to the southwest border and they are currently 
filling the mission requirements of Customs and Border Protection.

    30. Senator Cornyn. Chief Aguilar, can you elaborate on the 
specific missions by State that the National Guard will be asked to 
perform?
    Chief Aguilar. All four States have National Guard performing jobs 
that fall into a variety of mission sets. Each sector, however, has 
some variation in the way guardsmen are employed and deployed. In Rio 
Grande Valley, Texas, for example, more guardsmen are utilized at 
checkpoint operations, unloading vehicles, and dismantling cars for 
drugs, than they are being used in New Mexico, where the Guard is 
deployed in entry identification teams in the desert searching for 
illegal aliens. On any given day the jobs performed vary. The majority 
of missions conducted applied to all four States.
    The specific missions outlined in the Border Patrol Operations 
Plans for Operation Jump Start include: fence maintenance; general 
maintenance; law enforcement communications assistance; infra red scope 
operators; remote video surveillance camera operators; entry 
identification teams; intelligence/statistical analysis; aviation 
support; engineering of vehicle barriers and fencing; vehicle 
mechanics; transportation support; sensor monitoring; training support; 
road maintenance; IT support; command and control elements; and brush 
removal. Jump Start Operations Plans envision that the National Guard 
will perform these missions in all four States on the southwest border 
where they are deployed.

    31. Senator Cornyn. Chief Aguilar, do you have a cost estimate of 
these support operations?
    Chief Aguilar. The recent supplemental budgeted $708 million for 
the current fiscal year and fiscal year 2007 to the National Guard to 
support Operation Jump Start.

    32. Senator Cornyn. Chief Aguilar, will DHS reimburse DOD for costs 
that are beyond the National Guard's normal annual training 
requirements?
    Chief Aguilar. The recent supplemental provided $708 million for 
this current fiscal year and fiscal year 2007, in direct funding to the 
National Guard for Operation Jump Start.

                    use of unmanned aerial vehicles
    33. Senator Cornyn. Secretary McHale and General Blum, do you 
envision the use of unmanned aerial vehicles (UAV) as part of the 
effort? If so, to what extent?
    Mr. McHale. To date, the Bureau of CBP has not requested DOD UAV 
support for activities to enhance the security of the southwest border 
of the United States.
    In the past, DOD has provided UAV support through Joint Task Force 
North at the United States. Additionally, DOD has provided Hunter and 
Hermes UAV support to DHS for the Arizona Border Control Initiative in 
the summer and fall of 2004.
    If UAV support is requested, the request would be subject to 
approval by the Secretary of Defense.
    General Blum. To date, Bureau of CBP has not requested DOD UAV 
support for Operation Jump Start. The National Guard has limited 
inventory of UAVs. However, if the request is made by CBP and approved 
by the Secretary of Defense, the UAVs would most likely come from the 
Federal Active-Duty inventory. If the request is made and approved, a 
mission analysis will be conducted to determine the appropriate 
platform and quantity required to accomplish the mission.

    34. Senator Cornyn. Secretary McHale and General Blum, do you 
anticipate any problems getting timely authorization from the Federal 
Aviation Administration (FAA)?
    Mr. McHale. FAA requires that DOD submit a Certificate of 
Authorization (COA), no later than 60 days in advance, in order to fly 
UAVs in the National Airspace System. Both DOD and FAA have recognized 
the need for, and are working on, expedited procedures to meet short 
notice operational requirements.
    General Blum. No request for UAV support has been made at this 
time. However, in the event of such a request, the DOD will request a 
COA from the FAA to fly UAVs in the National Airspace System. Requests 
are made as far in advance as possible, but no later than 60 days prior 
to the operational dates, based on current FAA requirements. Both DOD 
and FAA have recognized a need for expedited procedures to meet short 
notice operational requirements.

    35. Senator Cornyn. Secretary McHale and General Blum, where would 
such units be based?
    Mr. McHale. As noted in the response to question 33, CBP has not 
requested DOD UAV support. If UAV support is requested by CBP, and 
approved by the Secretary of Defense, the Department will, at that 
time, determine the optimal basing locations for UAV operations.
    In the past, when DOD has provided UAV support to CBP at the 
southwest border, we have based UAV operations out of Fort Huachuca's 
Libby Army Airfield and Yuma Proving Grounds in Arizona.
    General Blum. No request for UAV support has been received. 
Presumably, any basing decisions that may have to be made in the future 
would be heavily shaped by the nature of the support mission requested. 
As a result, it is impossible to provide a specific basing plan now. As 
a general matter, however, the southwest border region has many 
military and civilian air fields from which such operations could be 
mounted should the need arise.

    36. Senator Cornyn. Secretary McHale and General Blum, would 
additional support facilities be needed?
    Mr. McHale. If CBP requests UAV support, and the Secretary of 
Defense approves this request, DOD will evaluate the operational 
requirements of the request and, on that basis, determine what support 
facilities are needed.
    General Blum. Probably not, but it is impossible to say for certain 
since no mission has been requested.

                              hot pursuit
    37. Senator Cornyn. Secretary McHale, General Blum, and Chief 
Aguilar, will surveillance of suspected illegal activity that begins 
outside U.S. territory continue within U.S. territory? If so, for how 
far, for how long, and what are the rules?
    Mr. McHale. National Guard personnel surveillance of suspected 
illegal activities that originate outside U.S. territory may continue 
within U.S. territory until such time as U.S. Border Patrol agents or 
other appropriate law enforcement authorities are able to apprehend the 
suspects.
    National Guard personnel collection, retention, and dissemination 
of information on U.S. persons (e.g., a U.S. citizen, an alien known to 
be a permanent resident alien, an unincorporated association 
substantially composed of U.S. citizens or permanent resident aliens, 
or a corporation incorporated in the United States, except for a 
corporation directed and controlled by a foreign government or 
governments) is limited to specific exceptions related to foreign 
intelligence or counterintelligence; international terrorist 
activities; international narcotics activities; the protection of DOD 
employees, property, facilities, and information systems; or violations 
of Federal, State, or local law.
    The intelligence collection plan that supports this mission was 
reviewed carefully to ensure that we are in strict compliance with all 
applicable laws and procedures, as they relate to the domestic 
collection of information by military authorities.
    General Blum. National Guard personnel are providing support to 
Federal law enforcement authorities. In that context, if a suspected 
illegal activity outside the United Slates, under the surveillance of 
National Guard assets, appears about to enter into the United States, 
the appropriate law enforcement agency will be notified at once. The 
precise rules and procedures will vary from location to location and 
from means to means.
    Chief Aguilar. The National Guard will maintain observation of 
those persons/vehicles observed in Mexico that enter illegally into the 
United States.
    There is no set answer as to how far or long observation will 
continue in the above situation. If National Guard Air support observes 
traffic they could maintain observation for quite some time and 
distance until a BP interdiction occurs. An Entry Identification Team 
(EIT) working near the border would be overtly positioned, probably 
well within a mile of the border. They would maintain observation as 
long and as far as they could, dependent upon the terrain and whatever 
vision enhancing device they have. Generally, observation is maintained 
and limited to 5 miles. Interdictions would probably occur within a few 
miles of the border. An EIT could observe the traffic for some time 
until a Border Patrol unit was directed in, especially if the traffic 
tried to hide. Border Patrol ``mobile enforcement response'' maintains 
``line of sight support'' for an EIT. A response to an EIT alert 
typically occurs within 5 minutes, so foot traffic shouldn't get too 
far off but a vehicle could probably travel several miles from the 
border before it was out of sight.
    ``Rules'': The National Guard will not interdict, detain, or arrest 
anyone.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin
                  comparison to counterdrug authority
    38. Senator Levin. Secretary McHale, the counterdrug activities of 
the National Guard authorized by section 112 of title 32, United States 
Code, are in support of a State drug interdiction and counterdrug plan 
developed by the State Governor and approved by the Secretary of 
Defense. The border security operation is in support of a Federal 
agency--the Bureau of Customs and Border Protection--not the State, 
even though the National Guard would be under the operational control 
of the Governor. Isn't there something inconsistent about National 
Guard in a State status under the operational control of a Governor 
performing a Federal mission in support of a Federal agency? Wouldn't 
it be more appropriate to perform Federal missions in a Federal status?
    Mr. McHale. We are building on a long history of very successful 
military activities that have worked. Since 1989, military activities 
conducted at the southwest border in support of the counterdrug mission 
have largely been carried out by National Guard personnel under the 
command and control of State Governors. Additionally, National Guard 
personnel have provided military support to civil authorities for many 
years in the normal course of military training or in activities that 
have resulted in a benefit to a military unit or to military personnel 
providing such support that is substantially equivalent to that which 
would otherwise be obtained from military training (e.g., medics, 
aviation, infantry, public affairs, admin and personnel, and 
maintenance personnel). National Guard personnel require training to 
prepare for the Federal mission, and this operation will not only 
provide them realistic training opportunities but will also serve to 
improve our Nation's land border security.

    39. Senator Levin. Secretary McHale, will the DHS, the State 
Governors, or any other agency submit a plan similar to the plan 
required by the statute authorizing counterdrug activities?
    Mr. McHale. No, DOD, DHS, State Governors, and the Adjutants 
General have worked together to develop a single, comprehensive plan 
for National Guard border security operations.

                            annual training
    40. Senator Levin. General Blum, one of the underlying principles 
of using annual training to perform this border security mission is 
that the National Guard personnel involved will receive training in 
mission essential tasks for their military occupational specialty. Do 
you anticipate that infantry and other combat units may be asked to 
perform their annual training in support of this border security 
mission, or will this duty be restricted to combat support and combat 
service support units?
    General Blum. I really see no restriction to the type of units that 
will be sent to support Operation Jump Start. Every soldier is trained 
in basic soldier skills to include camouflage, map reading, medical 
aid, and communication techniques regardless of their specific military 
occupation, and these skills will be needed on the border as well as 
specific skills such as engineers and mechanics.

    41. Senator Levin. General Blum, if combat troops will be used, 
what mission essential tasks will infantry soldiers train for? How will 
this affect artillery units? What percentage, if any, of their mission 
essential tasks will they be able to perform? What training for 
warfighting missions will these Guard units receive?
    General Blum. Mission essential tasks will be specific to the 
southwest border mission, not specific to a certain Military 
Occupational Specialty (MOS). Those mission sets are varied and diverse 
enough that each type of MOS will bring certain capabilities to the 
table. While an infantry platoon may have a higher compliment of 
collective and individual tasks satisfied by an EIT mission, the basic 
skills needed to accomplish that mission (navigation, movement, 
observation, etc.) are all baseline skill sets to guardsmen of any MOS.

    42. Senator Levin. General Blum, if you are not going to use combat 
troops, but will be diverting only the supporting units, such as 
engineering and logistics, to this mission, won't this prevent the Army 
Guard's enhanced separate brigades from training together as a brigade, 
which would run exactly counter to the intent of the Army's 
``modularity'' program to embed all the support forces necessary to 
sustain a deployment into a unified brigade structure?
    General Blum. There is no specific MOS that will be targeted for 
this mission. There will be a mixture of Combat Arms, Combat Support, 
and Combat Service Support units.

                  national guard personnel requirement
    43. Senator Levin. General Blum, Secretary McHale was quoted in the 
press last week saying that the force ``will consist mainly of National 
Guard troops from California, Texas, Arizona, and New Mexico.'' 
According to the DOD talking points, these four States currently have a 
combined total of about 50,000 guardsmen assigned. Have you determined 
how many of these 50,000 guardsmen in these four States are in the 
military occupational specialty areas that you will need for the 
mission?
    General Blum. Approximately half of the forces required will be 
performing EIT missions. This involves basic soldier skills that all of 
our combat arms troops are capable of performing. Approximately 25 
percent of the force will be engineers assisting the border patrol with 
development and improvement of tactical infrastructure. Approximately 
10 percent of the force will be aviation (primarily rotary wing). The 
remaining 15 percent will consist of troops assisting with command, 
control, administrative support, logistics, and maintenance. Each State 
has identified the portion of the mission they expect to complete with 
their own forces. We currently anticipate a requirement to source 
combat arms, engineering, and aviation from those supporting States.

                  availability of assets and personnel
    44. Senator Levin. General Blum, the administration's proposal 
relies heavily on using the National Guard to operate surveillance 
systems and analyzing intelligence. Aren't these the same skill sets 
that have been extensively utilized in the global war on terror and in 
counterdrug activities? Do we have enough personnel with these skills 
to keep asking more and more from them?
    General Blum. The skills you speak of--operation of surveillance 
systems and intelligence analysis--are indeed very valuable skill sets 
to this mission, counterdrug missions, and the global war on terror. 
While specialized in their scope, we are confident that we can continue 
to fill each of the mission areas you speak of with qualified, capable, 
and ready guardsmen. We accomplish this by spreading those mission 
sets, when appropriate, to several different capabilities that can 
deliver the desired end state. For example, surveillance can be 
conducted by dismounted entry identification teams, rotor aircraft, or 
by fixed wing aircraft. We are able to fill those critical positions 
when needed, but we can also spread a given requirement across a myriad 
of capabilities that can deliver the desired end result.

    45. Senator Levin. General Blum, both the Army and Air Force 
National Guard fell short of their recruiting goals in April, the last 
reports we have received. Are you concerned about recruiting and 
retention of personnel with these critical specialties if we continue 
to use them at the current rates?
    General Blum. I always pay particular attention to recruiting and 
retention, as our soldiers and airmen are our most important asset, and 
I'm encouraged at the most recent numbers that I've seen. For example, 
the Army National Guard has attained over 15,000 more accessions than 
at the same time last year. Retention rates continue at an all-time 
high for the Army National Guard at more than 117 percent of our goal. 
I'm also encouraged by the fact that the Army National Guard had a net 
increase in end strength of nearly 7,000 soldiers year to date, which 
is the largest growth in recent history. I'm equally pleased with the 
results in the Air National Guard, which has exceeded recruiting goals 
by attaining nearly 113 percent of our goal.

                          army guard equipment
    46. Senator Levin. General Blum, earlier this year you stated 
repeatedly that the Army Guard was short of equipment to perform all 
its assigned missions. The total Army does not have enough equipment to 
do all its required training at home and missions in Iraq and 
Afghanistan while performing the maintenance needed to counter the 
impact of all this wear and tear from this heavy usage of our 
equipment. So where is the Army Guard going to get the equipment you 
plan to leave as an equipment set on the southern border to support 
these guard rotations over the next 2 years?
    General Blum. Equipment and funding issues have and will continue 
to be an issue for the National Guard. We have received some funding to 
address some of our equipment shortfalls over the last year; however, 
the issue is ongoing. Our biggest equipment shortfall from last year, 
which was identified during Hurricanes Katrina and Rita, involved 
interoperability of our communications assets. We have addressed the 
issue and are prepared for the hurricane season; we will continue to 
work to identify these issues and address the needs with the 
appropriate people.

                      coordination with governors
    47. Senator Levin. Secretary McHale and General Blum, please 
describe any pre-decisional coordination and consultation with the 
Nation's Governors about use of their National Guard's annual training 
to support the Border Patrol to secure our southern border. We know 
from the Hurricane Katrina response that coordinating a large multi-
State Guard operation like this is something that the States and 
National Guard had problems with just in the last year. Who will 
coordinate this effort, and how will it be de-conflicted with other 
missions that may emerge like disaster assistance during this hurricane 
season?
    Mr. McHale. The Governors and the Adjutants General of the 
supported southwestern border States, as well as those States that may 
be asked to provide National Guard personnel to the southwestern border 
States, have been closely involved in the planning of this operation, 
and the activities of their National Guard personnel in this operation 
have been conducted with their full consent.
    The National Guard Bureau, in accordance with sections 10501 and 
10503 of title 10, U.S.C., is coordinating this effort with the 
Adjutants General and assisting in de-conflicting the demands of this 
effort with those of overseas operations and domestic emergencies such 
us hurricanes, earthquakes, tornados, floods, and wildfires.
    General Blum. I'll first start with the issue of command and 
control. Each ``supported'' State--New Mexico, Arizona, California, and 
Texas--has created a Joint Task Force (JTF) which will be responsible 
for the command and control of all forces related to this operation. 
This includes forces that are coming in from ``supporting'' States. The 
``supporting'' States will retain administrative control of the troops 
to ensure pay and other support needs are met. The ``supported'' State 
JTF commander, however, will own the operational/tactical control. 
Since we will employ our soldiers and airmen in title 32 status, the 
Governor of each respective State will have total control of these 
National Guard Forces. The National Guard Bureau will work with each of 
the States to provide any assistance necessary, as well as serving as 
the conduit to NORTHCOM.

    48. Senator Levin. Secretary McHale and General Blum, what will be 
the role for the NORTHCOM, and what changes have been made to the 
system and arrangements that were used to respond to Hurricane Katrina?
    Mr. McHale. U.S. NORTHCOM's role in border security has been to 
provide support to civilian authorities, principally the DHS, when 
directed by the President or the Secretary of Defense. For the current 
effort, military support is provided by National Guard Forces operating 
under the command and control of the State Governors. The National 
Guard emphasis is not new to efforts to support CBP.
    Currently, there are no plans to deploy additional Active-Duty 
personnel to the border. However, as we gain more information related 
to the mission, there may be some capabilities found in Active-Duty 
units that can be employed to gain and maintain increased security 
along the border. If Active-Duty personnel are used their employment 
would be on a very limited and reimbursable basis, to provide specific 
skills and capabilities. These personnel would operate under the 
command and control authority of the Commander, U.S. NORTHCOM.
    Additionally, Joint Task Force North, a subordinate command of U.S. 
NORTHCOM, has, for the last 2 years, supported CBP on border security 
operations in numerous northern and southern U.S. Border Patrol 
Sectors. Since it is likely that Joint Task Force North will continue 
to conduct such operations, U.S. NORTHCOM will liaise closely with the 
National Guard Bureau to ensure that Federal and State military forces 
involved in border security operations have a common understanding of 
the locations, tasks, and purposes of all military forces providing 
military support in the vicinity of the borders.
    General Blum. The relationship between the National Guard Bureau 
and NORTHCOM has only strengthened since Hurricane Katrina. The 
National Guard Bureau will continue to coordinate with the NORTHCOM to 
ensure they have the ``common operating picture'' of this mission and 
understand the amount and types of troops that are on the ground to 
conduct this mission. With that said, I want to reiterate that the 
State Governors own the command and control of these soldiers and 
airmen since they will be in either title 32 or State status, not title 
10.

                coordination and role of the joint staff
    49. Senator Levin. General Conway, one of the problems involved 
with the deployment of National Guard units in connection with 
Hurricane Katrina was that the receiving States and the Joint Task 
Force Commander did not know the skill sets of the units that were 
deploying to support them. The Joint Staff has been deploying units for 
decades and has honed the process to a fine art. What role will the 
Joint Staff play, if any, in the identification and deployment of 
National Guard units to the border States?
    General Conway. National Guard personnel deploying to and operating 
in the border States will be doing so under the authority of title 32, 
U.S.C. The State Adjutants General, with the assistance of the National 
Guard Bureau and in accordance with the Emergency Management Assistance 
Compact and a State-to-State memorandum of agreement, will coordinate 
the identification, deployment, and redeployment of National Guard 
personnel in support of this activity. Command and control of these 
personnel will be exercised by State Governors. The Joint Staff will 
not have a role in this process.

    50. Senator Levin. General Conway, has any thought been given to 
the impact that the deployment of National Guard units to the border 
States could have on combatant command war plans?
    General Conway. This limited, temporary deployment will not 
adversely affect operational readiness or DOD's ability to conduct the 
global war on terrorism, nor hinder the National Guard's ability or 
capacity to aid their States in the event of a natural disaster or 
other emergency. It will, however, provide Guard forces with realistic 
training opportunities, while also providing support to the DHS.

    51. Senator Levin. General Conway, another problem related to 
Hurricane Katrina was the lack of a single chain of command and the 
impact on unity of effort. What will the command relationship be 
between the National Guard units and the Active units that will be 
involved in this effort?
    General Conway. There are currently no Active-Duty title 10 forces 
involved in this mission. NORTHCOM, with the assistance of the National 
Guard Bureau, will coordinate missions with the National Guard Joint 
Task Forces operating in the four southwestern border States to ensure 
operations are synchronized.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton
                  uavs operating in domestic airspace
    52. Senator Clinton. Secretary McHale, one of the difficulties in 
using many of the UAVs that are used by our military forces is in using 
airspace that also is used by commercial or civilian aircraft. At this 
point, DOD forces must seek permission for individual flights from the 
FAA to use such airspace well ahead when they intend to operate the 
UAVs. As I understand it, granting this permission can require up to 60 
days or more. If we are to have the National Guard employ UAVs 
effectively in this mission, it would seem to me that this 
administrative lead time would be unworkable. What steps are the FAA 
and DOD taking to reduce or eliminate such lead times in being able to 
fly UAVs regularly along the border in support of this initiative?
    Mr. McHale. FAA requires that DOD submit a COA, no later than 60 
days in advance, in order to fly UAVs in the National Airspace System. 
Both DOD and FAA have recognized the need for, and are working on, 
expedited procedures to meet short notice operational requirements.
    To date, CBP has not requested DOD UAV support as part of the 
effort to enhance the security of the southwestern border.
    In the past, DOD has provided UAV support through Joint Task Force 
North at the request of CBP in support of its counterdrug mission on 
the southern border of the United States. Additionally, DOD has 
provided Hunter and Hermes UAV support to DHS for the Arizona Border 
Control Initiative in the summer and fall of 2004.
    If CBP does request UAV support, that request would be subject to 
approval by the Secretary of Defense.

                          predator uav systems
    53. Senator Clinton. General Conway, one of the systems that has 
been in short supply in the Iraq and Afghanistan theaters has been the 
Predator UAV providing streaming video capability. Will the DOD be 
diverting Predator UAV systems that had been scheduled to support 
forces deployed to U.S. Central Command in favor of sending them to the 
southwest border?
    General Conway. To date, the Bureau of Customs and Border 
Protection has not requested DOD UAV support for activities to enhance 
the security of the southwest border of the United States. If DOD were 
to receive such a request, we are required by section 376 of title 10, 
U.S.C., to ensure that the provision of any such military support to 
law enforcement does not adversely affect the military preparedness of 
the United States. Right now, there is no plan to pull any UAV assets 
away from operations in Iraq and Afghanistan for use on the southwest 
border. As the President stated earlier, the mission on the southwest 
border will have no impact on the global war on terror.

    [Whereupon, at 5:40 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
